<html>
<title> - DEPARTMENTS OF TRANSPORTATION, TREASURY AND GENERAL GOVERNMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF TRANSPORTATION, TREASURY AND GENERAL GOVERNMENT, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 8, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:14 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Campbell, Brownback, Stevens, and 
Murray.

                      DEPARTMENT OF TRANSPORTATION

STATEMENT OF NORMAN Y. MINETA, SECRETARY
ACCOMPANIED BY DONNA McLEAN, ASSISTANT SECRETARY OF TRANSPORTATION FOR 
            BUDGET

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The committee will come to order. Welcome, 
Mr. Secretary. We are pleased that you are doing better, and as 
I told you, we will be walking briskly down the hall together. 
We are pleased to see you here today. I know it has been a 
difficult year for you and I hope that the remainder of 2003 is 
better.
    I look forward to our discussion this morning on the 
Department of Transportation's 2004 budget request. I hope we 
will also have an opportunity to uncover how the budget request 
relates to your authorization proposals and your other goals 
for the Department.
    I first want to commend you, Mr. Secretary, for proposing a 
budget that does not impose any new user fees. With our economy 
struggling to recover, I believe that now would be the worst 
time to increase the burden on transportation users. Our goal 
should be to do more with less and to relieve unnecessary 
impediments to efficiency in the transportation system.
    In addition, I look forward to obtaining greater detail 
about the proposal to establish a new $1 billion infrastructure 
performance and maintenance program for highway projects that 
can be constructed quickly, and how those funds would be 
allocated to enhance transportation systems and relieve 
congestion.
    The budget request for the Federal Transit Administration 
proposes the most significant changes from previous fiscal 
years. I am skeptical that consolidation of programs and 
distribution by formula of transit dollars will improve the 
delivery of transit services or capital improvements. Formula 
fights can be distracting and the Federal role in transit 
should be more than simply revenue sharing.
    Instead, I believe that we should structure transit funding 
to improve rural connectivity, eliminate the bias toward rail 
capital projects, focus Federal investment on key projects that 
might not otherwise get built but have a significant impact, 
and put in place oversight procedures for early identification 
of the risk associated with project execution.
    While funding for the highway program is not what I had 
hoped for, and is less than what we provided in the omnibus, it 
is better than what the RABA-like mechanism would have 
provided, and considerably better than some of the rumors that 
were circulating last December. Nevertheless, I believe that 
the highway obligation limitation needs to be increased and I 
look forward to working with you to further that goal.
    Other than that, I view this budget basically as a status 
quo budget. I know that the Department has focused almost 
exclusively on TSA last year and on transitioning Coast Guard 
and the TSA to the Department of Homeland Security. But I did 
expect a bit more in this budget proposal on where you wanted 
to take the remainder of the Department.
    I am as concerned about what is missing from the budget 
request as I am with what it includes. Highway fatalities are 
headed in the wrong direction, increasing for the fourth 
consecutive year. And just as troubling, alcohol-related 
accidents and fatalities increased again for a third time in as 
many years.
    Yet, there is no new initiative to increase seatbelt use, 
reduce drunken driving, or to do anything differently at NHTSA 
other than consolidating several existing State grant programs 
or shifting funds for grant programs from FHWA to NHTSA.
    I think that we can do better. Two years ago, Senator 
Murray and I provided funding for Click It or Ticket campaigns. 
After struggling with NHTSA to get them to use the money, the 
program had a positive impact on the national seatbelt usage 
rate. This shows why we need to make greater use of targeted, 
data-driven programs.
    If they work, you will have my support to grow the 
initiative. If they do not, we will try something else, even if 
that means upsetting some of NHTSA's partners. The only thing 
that is not acceptable I believe is not trying new things to 
reduce the carnage on our highways.
    With regard to passenger rail, I must say that I am 
disappointed there once again. The Department has failed to 
provide the leadership, I believe, that is necessary to 
transform Amtrak. While the Congress waits for a legislative 
proposal that embodies the principles of reform that you 
articulated last June, your representative on the Amtrak board 
of directors has supported a budget that is an all-out effort 
to preserve the current failed system.
    Amtrak's budget assumes a Federal subsidy that is twice as 
much as what was included in the President's budget, but does 
not contemplate even minor changes to the current structure. 
Amtrak's hostility to reform was further demonstrated when 
Amtrak's CEO abandoned his commitment to fully recover the cost 
of State-supported lines as soon as private rail companies 
offered to provide the service for the States at a much lower 
cost.
    In a similar vein, I have impressed upon both your 
predecessors and the FAA administrator that something needs to 
be done to contain the cost growth of the FAA. Over the past 9 
years, the FAA operations budget has grown 65 percent, 
including a proposed 8.1 percent growth in the budget request 
for 2004. By comparison, aircraft operations, the primary 
driver for FAA operations activities, have declined 10 percent 
since 2000. In a budget constrained environment it is 
unsustainable to have unchecked costs at the FAA.
    This is a perennial item on the Inspector General's top ten 
management challenge list, yet nothing ever seems to get done. 
Like Amtrak, ignoring the issue of cost growth of the FAA's 
operation budget will not make it go away and is a disservice, 
I believe, to the American taxpayer.
    Finally, Mr. Secretary, I want to raise what I believe is 
an emerging challenge for the Department and the FAA: the 
economic trade and regulatory implications of a consolidated 
European Union Member States open skies or open aviation area 
concept.
    Whether an open aviation area multilateral agreement is a 
good idea or not, I believe that the die is cast and that the 
European Union will be working in a much more coordinated 
manner with regard to International Civil Aviation Organization 
regulatory and safety issues. That presents enormous challenges 
and potential risks for the United States given the opportunity 
for mischief that can intentionally or unintentionally creep 
into standards consideration and creation.
    This is an important and a very complicated area and I 
encourage you to put some of your best people on it and to 
provide a clear and comprehensive statement of where you 
believe the United States should head in this regard in order 
to maintain our preeminence in aviation.
    Mr. Secretary, we have an obligation to do better than just 
delivering the status quo and I look forward to working with 
you toward that end. It is good to see you again.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. First let me join 
with you in saying how pleased I am to see Secretary Mineta 
back before this subcommittee. We all know that Secretary 
Mineta has worked far harder than he should have during his 
recuperation from surgery. I suspect that his leadership of the 
Department during this period was far more involved than his 
doctors would have liked. I want to publicly thank you for all 
the extra effort during these last few months.
    I know they have been difficult ones but our Nation and our 
entire transportation enterprise is better off because of your 
selfless commitment, Mr. Secretary, and we thank you.
    Just a few minutes ago, I had the opportunity to introduce 
Ms. Annette Sandberg to the Senate Commerce, Science, and 
Transportation Committee. She is Secretary Mineta's Acting 
Administrator at the Federal Motor Carrier Safety 
Administration. I think the President made an excellent choice 
in asking that she be appointed as the permanent Administrator 
of that agency. Ms. Sandberg was the first woman to serve as 
the head of a State police force, having served as chief of the 
Washington State force for 6 years. I was really honored to 
introduce her to the Commerce Committee today and I have great 
faith in her ability to advance the cause of truck safety at 
that agency.
    With the passage of the Homeland Security Act, the 
reorganization of the Department, and the reorganization this 
committee, both Secretary Mineta and this subcommittee have an 
opportunity to refocus and redouble our efforts on the core 
missions of the Department of Transportation. For the last 2 
years we have been focused on the urgent security needs in all 
of the transportation modes. With that responsibility now 
vested in another department and another Appropriations 
Subcommittee, we can focus on alleviating congestion on our 
runways and our highways, and minimizing the number of 
transportation-related fatalities.
    This morning I would like to focus on four areas of the 
President's budget proposal: highway safety, aviation, highway 
construction, and Amtrak. Mr. Chairman, as you mentioned in 
your statement, we have experienced the fourth consecutive year 
of increased fatalities on our highways and that unacceptable 
record must be reversed. As I look at the President's budget 
request for 2004 for the Department of Transportation, I see a 
mixed bag. There are increased resources to address highway 
safety, and this subcommittee will need to pursue whether the 
requested levels are sufficient to really change behavior, 
especially involving drinking and driving.
    In the area of aviation, increased resources are requested 
for the FAA's operations budget. However, given the financial 
problems facing our airlines, the FAA has some major new 
challenges. The FAA is charged with inspecting and certifying 
the safety procedures for all of our airlines. At the same 
time, the airlines are increasingly contracting out maintenance 
to entities that have minimum Federal oversight. Indeed, the 
FAA has its own standard requiring increased scrutiny of the 
safety practices of airlines that are operating in bankruptcy? 
It is not yet clear that the FAA even has enough inspectors on 
its payroll to fulfill its own standard. It is also not clear 
that the President's 2004 budget provides the kind of resources 
that will enable the FAA to meet its standard if airlines are 
still operating in bankruptcy in 2004.
    In the area of highways, the President is calling for a cut 
of $2.3 billion or 7.3 percent. This request is far preferable 
to the $8.6 billion cut that the Administration requested last 
year, but it is still moving, I believe, very much in the wrong 
direction. As a Senator whose home State includes Seattle, a 
city with the third worst traffic congestion in the Nation, I 
can tell you that a further retreat in the Federal investment 
in our Nation's highway infrastructure is not the right way to 
go.
    Finally, let me turn to Amtrak. The Administration has 
requested $900 million. That is a reduction of 22 percent below 
the de facto 2003 appropriations. Last year, the President 
requested only $521 million. Further, this Administration never 
articulated precisely how the railroad could avoid bankruptcy 
at that level of funding. So this year's request, at least in 
dollar terms, is an improvement.
    With the $900 million request, the Administration may be on 
its way to earning a seat at the table when it comes to a 
meaningful discussion with Congress as to Amtrak's future. But 
for the Administration to be a meaningful partner with us in 
that discussion, the Administration needs to submit a 
comprehensive reauthorization proposal for Amtrak. That 
proposal was due to Congress over a year ago. We still have not 
seen it yet, though the Deputy Secretary recently testified to 
the authorizing committees about some of the concepts that we 
can expect to see in the document. But we will not be able to 
decide if $900 million is enough until we have seen the 
Administration's actual proposal.
    One thing I do know about this legislation is it is not 
Secretary Mineta's fault we have not seen it yet. I can only 
hope that in his last 30 days on the job that OMB Director 
Daniels will take it upon himself to see to it that this piece 
of business is taken care of before he leaves the Government.
    So in conclusion, I want to thank Secretary Mineta for 
being with us here this morning. I want to thank him as well 
for the invitation to introduce his soon-to-be-confirmed 
Federal Motor Carrier Safety Administrator. I look forward to 
having a dialogue with him this morning about our shared goals 
of alleviating congestion and saving lives.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Campbell.

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thank you, Mr. Chairman. Welcome to my 
friend and former colleague from the House side days, Secretary 
Mineta. Our State of Colorado is the third fastest growing 
State, Mr. Chairman, behind Nevada and Arizona. Certainly we 
face the same problems all fast-growing States do. We have 
transportation problems that are huge. We have one great big 
construction job on I-25 between Denver and Colorado Springs 
that we call T-Rex for an appropriate reason; because the thing 
is a monster if you try to drive through there with the ground 
tore up and the old bridges coming down, new ones going up, and 
so on.
    I have to associate myself with the comments of Senator 
Murray and say that the President's budget I think is 
inadequate. I worry that a lot of these contracts that have 
been let are going to just leave the States hanging with their 
projects half done and without enough money to finish them.
    But I do want to thank you for your past support, Mr. 
Secretary, for that particular project in Colorado because it 
is a very unique project. It uses what is called a design-built 
process which combines light rail, highway, bike, pedestrian, 
and other transit options all into one. I think that when it is 
finally done it is going to really become a model for the 
country. So I want to thank you for that, and also for the help 
you have given us with the sixth runway at DIA that is under 
construction, as you know, and will be done shortly.
    One concern I do have that really carries over from last 
year, Mr. Chairman, is the hours of service that the Federal 
Motor Carriers Safety Administration has implemented. I went to 
the hearings before we delayed that for a year last year. I had 
my staff go to two of them; I just went to one. I was convinced 
then that the Administration had already made a decision and 
they were just doing perfunctory things of listening to people 
complain. But they are implementing that, and requiring the 
truckers to stay off the road two more hours, which sounds good 
on the surface.
    But I have a CDL, as you probably know, Mr. Chairman. Still 
have a couple of Class A trucks and go to those a lot, and I 
think that there are some real downsides to it. The truckers 
themselves, as you know in any kind of cold climate, they do 
not shut those things off. That means they sit in truck stops 
or on off-ramps and on-ramps, which are becoming more crowded 
all the time, or in rest stops, highway rest stops that are run 
by the States usually. They have to keep them on to stay warm. 
I do not know how we say that we are going to save fuel by not 
putting it to productive use and just keeping them running 
while they are sitting there.
    Secondly to that, most of the truckers that I know, they 
get bored silly, so they just spend most of their time and most 
of their money running the video games and doing the things 
that now you can do at these big RV truck stop combinations.
    We talk about safety. It is my understanding that if you do 
implement these hours and you have the same amount of shipping 
of merchandise, that means you are going to have more trucks on 
the road to offset the ones that are just sitting idle for 
those extra hours. For the life of me, I cannot understand how 
that is an increased safety feature when you say there are 
going to be more 18-wheelers on the roads instead of less.
    I am going to ask the Secretary, if I can stay long enough, 
to give me his opinion about the present state of that when we 
get into questions and answers. But it is certainly one of my 
big concerns.
    Thank you, Mr. Chairman.

              PREPARED STATEMENT OF SENATOR SAM BROWNBACK

    Senator Shelby. Senator Brownback has submitted a written 
statement he would like to have included for the record.
    [The statement follows:]
              Prepared Statement of Senator Sam Brownback
    Mr. Chairman, I would like to thank you for holding this hearing 
today and inviting The Honorable Secretary Mineta to testify before us. 
There are two issues of particular importance to the State of Kansas 
that I hope the Secretary will address today. First, is that of the 
aviation industry and the need to bolster aviation and aeronautics 
research and development. In particular, I would like to highlight a 
bill I recently introduced with Senator Hollings, S.788, the Second 
Century of Flight Act. Second, I would like to address the issues of 
short line railroads and the needs there for track rehabilitation and 
preservation.
    Just last week in the Committee on Commerce, Science, and 
Transportation we marked-up the Federal Aviation Administration (FAA) 
Reauthorization bill. S.788, The Second Century of Flight Act addresses 
many of the concerns currently facing the aviation sector. And I was 
extremely pleased that my Colleagues on the Commerce Committee agreed 
to include three out of the four titles of that bill in the FAA 
Reauthorization.
    This bill would create a national office to coordinate aviation and 
aerospace research activities within the U.S. Government and 
encouraging public-private cooperation. Additionally, this bill creates 
a national office to focus on a next generation air traffic management 
system and establishes a new educational program to train the next 
generation of aeronautics engineers and mechanics.
    I am sure it is a goal of all of ours to ensure that the United 
States continues to lead the world in aeronautics and aviation safety, 
technology, and efficiency.
    Additionally, an issue that should be of importance to all of us in 
the room is the future of ``short line'' local freight railroads. These 
short lines account for roughly half the rail miles in Kansas. These 
lines gather tens of thousands of carloads of grain and start them on 
their way across the country and for export abroad. However, government 
disincentives forced the prior owners of these light density lines to 
neglect investment in the infrastructure, and now the weight of loaded 
railroad cars are growing ever heavier. This has forced many of these 
light density lines to abandon operations.
    Last year, the Senate addressed these issues through Senate Bill 
1220. That bill would have established a capital grant program for 
rehabilitation and improvement of tracks and related structures on 
small railroads to being the infrastructure up to a level permitting 
safe and efficient operation. Unfortunately, that bill never saw action 
on the Senate floor during the 107th Session of Congress. The Members 
in this room should make a commitment to this issue, realizing the 
important and impact short line operations have on highway miles.
    Again, Secretary Mineta, thank you for being here today. I look 
forward to hearing your responses to some of the questions I have for 
you.

    Senator Shelby. Mr. Secretary, your written statement will 
be made part of the record in its entirety. You may proceed as 
you wish.

                     STATEMENT OF NORMAN Y. MINETA

    Secretary Mineta. Mr. Chairman, thank you very much, to the 
members of the subcommittee as well, for this opportunity to 
appear before you today. Before I begin, let me offer my 
congratulations to you, Mr. Chairman, for taking the helm of 
this very important subcommittee.
    Senator Shelby. We swap it back and forth. But let's do not 
do it soon.
    Secretary Mineta. Again, I appreciate this opportunity to 
be before you, and all the members of the subcommittee, who 
have extended to me a very warm welcome. I have enjoyed the 
opportunity to work with all of you in terms of advancing the 
cause of transportation in our great country. I want to thank 
you, Senator Murray, for taking the time to introduce Annette 
Sandberg at the Commerce hearing on her nomination. As the 
acting administrator of the Federal Motor Carrier Safety 
Administration she has already been subjected to a great deal 
of work in the short time she has been there.
    Mr. Chairman, I would also like to introduce our Assistant 
Secretary of Transportation for Budget, Donna McLean, who, with 
your permission will be sitting at my side to assist me with 
any details on questions that come up.
    I am pleased to share with you the Department of 
Transportation's 2004 budget. President Bush is requesting 
$54.3 billion for the Department, including more than $14 
billion, or 27 percent, that is being targeted to support my 
number one priority, safety. As you have indicated, highway 
traffic deaths are starting to go up. For the last 15 months, 
my senior management team has spent a great deal of time 
focused on the security threats that face transportation. But 
this year I have challenged my team to bring that same passion, 
that same innovation and what I hope will be the same 
outstanding success on a simple but important goal: improving 
safety and saving lives while continuing to improve America's 
transportation system.

            REAUTHORIZATION OF SURFACE AND AVIATION PROGRAMS

    As you all are very well aware, the current laws 
authorizing vital surface and air transportation programs 
expire in the next few months. Accordingly, our 2004 budget 
includes the foundation for proposed legislation addressing our 
Nation's future transportation needs. President Bush recently 
presented to the Congress his aviation reauthorization 
legislation, the Centennial of Flight Aviation Authorization 
Act, or Flight-100. Consistent with this proposal, the 
President's 2004 budget requests $14 billion for the FAA. We 
are currently finalizing our proposed surface transportation 
reauthorization legislation and anticipate its delivery to you 
shortly.
    Although a few details are still under discussion within 
the Administration let me simply say this, the Administration's 
forthcoming reauthorization proposal will serve as the largest 
surface transportation investment in our Nation's history. I 
firmly believe that the Administration's proposal, when enacted 
by the Congress, will dramatically further our efforts to grow 
the Nation's economy without imposing any new gasoline taxes.
    Now as a former member of Congress who spent considerable 
time on the other side of this microphone, I know it is 
important to determine what the total amount of funding will 
be. But as all of you know, what we spend is only part of the 
challenge in legislation we will work together on. How we spend 
it is just as critical. That is why our proposal will be more 
than simply a spending plan. It is a true blueprint for 
investment.
    Our proposal will include a dedicated commitment to saving 
lives by consolidating and expanding Federal safety programs, 
increasing funding flexibility for State and local authorities, 
encouraging innovative financing tools, accelerating 
environmental reviews by building on President Bush's executive 
order on environmental stewardship, and finally, simplifying 
transit programs to foster a seamless transportation network.
    Now the President's 2004 budget supports these principles 
by requesting $30.2 billion for highway programs, $1.2 billion 
for motor carrier and highway safety, and $7.2 billion for 
transit.

                                 AMTRAK

    In addition to our proposals to support our highways and 
airways, President Bush is requesting $900 million for Amtrak. 
But this funding comes with a very strong message. Amtrak must 
undergo significant reform. Last week our Deputy Secretary of 
Transportation, Michael Jackson, and our Federal Railroad 
Administrator, Alan Rutter, testified before your colleagues in 
the Senate and in the House on the Administration's vision for 
a strong national intercity passenger rail system. I believe 
that America deserves a national rail system that is driven by 
sound economics, fosters competition, and establishes a long-
term partnership between States and the Federal Government.
    Mr. Chairman, this vision cannot be achieved without a 
fundamental reform of Amtrak. Simply put, America can no longer 
afford the status quo. I am personally committed to working 
closely with all of you, the Congress, the States, industry, 
and labor leaders to develop a financially healthy system that 
provides a viable national passenger rail service to America.

                           PREPARED STATEMENT

    Let me close by again thanking you for the opportunity to 
testify today. I have worked with all of you over the years on 
these issues and I look forward to tackling them again with 
you. I pledge that we will work closely with this subcommittee, 
Mr. Chairman, and with the entire Congress as we consider the 
2004 budget. Now I look forward to responding to any questions 
that you might have.
    [The statement follows:]
                 Prepared Statement of Norman Y. Mineta
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Administration's 
fiscal year 2004 budget request for the Department of Transportation. 
President Bush is requesting $54.3 billion for the Department including 
over $14 billion, or 27 percent, targeted to support our number one 
priority--safety. But before I outline the specifics of our 2004 
budget, let me briefly speak to our making safety a priority while we 
improve our Nation's transportation system.
    For the Department of Transportation, 2003 will be a year of 
special focus on highway and aviation safety. For the last 15 months, 
we at the Department of Transportation have spent a great deal of our 
time making transportation secure and responding to the threats of 
terrorism. This was absolutely necessary. We've made great progress.
    In the aftermath of September 11th, the Department of 
Transportation had a laser-like focus on security. Two months ago, we 
successfully handed off to the new Department of Homeland Security the 
United States Coast Guard and the Transportation Security 
Administration--two of their largest and high profile agencies.
    The Department of Transportation is proud to have provided strong 
leadership and steady support to the United States Coast Guard for more 
than 35 years. I am particularly proud of our work standing up the 
Transportation Security Administration from its creation through its 
first full year of operation. Indeed, this was a monumental task--one 
in which we performed under the intense glare of the public spotlight. 
It was a task that many of the so-called ``experts'' said was 
undeliverable.
    On November 19, 2001, the day that the TSA was created, there were 
only 33 Federal Air Marshals nationwide. At that time, there was a 
poorly qualified, poorly equipped screener service at the airports, 
with substandard supervision. In less than one year and under wartime 
conditions, we recruited, trained, and deployed thousands of Air 
Marshals. We recruited over 300 highly qualified Federal Security 
Directors to oversee more than 429 airports in the country.
    Through an unprecedented partnership with the private sector, we 
processed over a million applications, and hired, trained, and deployed 
more than 50,000 passenger and baggage screeners who provide world-
class security and world-class customer service.
    All of this was done while meeting 37 mandates--36 of which were 
set by you the Congress in the Aviation and Transportation Security 
Act. The 37th was my own. I told my colleagues to be sure and meet the 
other 36. I am proud to say that the stellar employees of the 
Department of Transportation performed spectacularly--designing and 
delivering, on time and in working order, the Transportation Security 
Administration. When you look at the airline security system on 
September 12, 2001 and our system today, I am tremendously proud of the 
Department of Transportation and I am grateful to the Congress and this 
Committee for the cooperation we received.
    We at the Department of Transportation look forward to continuing 
to work closely with our colleagues in the U.S. Coast Guard, the TSA, 
and throughout the Department of Homeland Security to ensure that 
America's transportation system remains safe, secure and efficient.
    Now for this year, and going forward, I have challenged my senior 
management team to focus the same passion and the same innovation spent 
on security over the last year on a simple but profoundly important 
goal: improving safety and saving lives. Once again, I would like you 
in Congress to be our partners and achieve the same historic record of 
performance.
    As I stated at the outset, more than one quarter of President 
Bush's 2004 budget is dedicated to ensuring the highest levels of 
safety across America's transportation infrastructure. The 
Administration's reauthorization proposals for both surface and air 
transportation programs will provide evidence of our continued 
commitment to safety. As you all know, those vital programs will expire 
in September. In anticipation of this, our 2004 budget request includes 
the foundation for proposed new legislation to address our Nation's 
transportation needs over the next four to six years.
    We recently presented to the Congress President Bush's aviation 
reauthorization legislation--The Centennial of Flight Aviation 
Authorization Act, or Flight-100. We look forward to working with the 
members of this Subcommittee and with the entire Congress on swift 
passage of both this key aviation legislation, and the upcoming surface 
transportation legislation.
    Let me share with you several principles of our aviation and 
surface transportation reauthorization proposals.
  --Our proposals will include an emphasis on consolidating and 
        expanding Federal safety programs.
  --For the surface transportation programs, we will include increased 
        funding flexibility for State and local authorities.
  --We will continue to encourage innovative financing tools.
  --We will propose efficient environmental stewardship processes that 
        facilitate transportation infrastructure projects without 
        compromising the environment.
  --Finally, we will continue a strong emphasis on public 
        transportation by simplifying transit programs and fostering a 
        seamless transportation network.
    The $14 billion requested by President Bush for the Federal 
Aviation Administration in 2004 will further ensure the highest 
possible levels of safety throughout the aviation system.
    Flight-100 improves safety oversight of operators, repair stations 
and others, while tightening enforcement of the FAA's stringent safety 
and maintenance regulations. Because at the same time travel demand for 
air service will inevitably return to, and exceed, pre-September 11th 
levels in the future, we cannot afford to reduce our commitment to 
investing in the Nation's air traffic control system and our airports. 
Equally important, we cannot take our eye off the safety goal: to 
reduce aviation fatality rates by 80 percent over the period 1996 to 
2007.
    To meet both safety and mobility needs, the budget proposes to 
spend a greater portion of the accumulated cash balances from the 
Airport and Airway Trust Fund. The President's budget request and our 
reauthorization proposal provide $2.9 billion in fiscal year 2004 for 
facilities and equipment. In 2007, that figure rises to $3.1 billion.
    Our proposal also provides $7.5 billion for FAA operations and 
maintenance in 2004 to improve efficiency--an 8 percent increase over 
the 2003 enacted level--and supports implementation of the Operational 
Evolution Plan, the acceleration of airspace redesign, and future air 
traffic controller staffing needs.
    Turning to our soon-to-be presented surface transportation 
proposal, let me begin with a fundamental principle: the President and 
his Administration are committed to maintaining guaranteed funding 
levels that link highway spending to Highway Trust Fund receipts.
    Our proposed program spends at a level that keeps the Highway Trust 
Fund balance relatively constant. The proposed obligation limitation 
for 2004 is $29.3 billion. When comparing the Administration's 6-year 
surface transportation reauthorization proposal in total to the six 
years of TEA-21, the President proposes an overall increase of 19 
percent. The fiscal year 2004 budget accomplishes this increase without 
proposing new user fees.
    For the Federal Highway Administration, the fiscal year 2004 budget 
request proposes that all revenue from gasohol taxes be deposited 
directly in the Highway Trust Fund rather than the current approach 
that deposits gasohol taxes into the General Fund. If enacted, this one 
change will add more than $600 million of available funding to the 
Highway Trust Fund for each year of the authorization cycle.
    In addition to spending estimated Highway Trust Fund receipts, our 
proposal also unveils a new $1 billion Infrastructure Performance and 
Maintenance initiative to fund preservation and congestion alleviation 
projects that can be implemented quickly. Totaling $6 billion over the 
authorization period, this funding will target projects that address 
traffic congestion and bottlenecks, and improve pavement conditions.
    Every year, more than 42,000 people die on our Nation's roads and 
highways. This is unacceptable--we can and must do a better job to save 
lives.
    Reducing highway fatalities is ``priority one.'' That is why the 
President's budget request includes $665 million for the National 
Highway Traffic Safety Administration to reduce fatalities, prevent 
injuries, and encourage safe driving practices. Of NHTSA's 2004 funding 
request, $447 million will support grants to States to enforce safety 
belt and child safety seat use and reduce impaired driving.
    The Federal Motor Carrier Safety Administration, too, is focusing 
on ways to prevent fatalities and injuries resulting from accidents 
involving commercial motor vehicles. The 2004 budget request includes 
$447 million to address these critical safety issues. We will also 
continue to emphasize a comprehensive safety inspection program at the 
southern border so Americans can be assured that trucks entering the 
United States from Mexico meet our Federal safety regulations.
    The Administration's 2004 budget request includes $7.2 billion to 
strengthen and maintain our public transportation systems and includes 
$1.5 billion to fund 26 ``new starts'' projects that will carry over 
190 million riders annually when completed.
    In addition to our proposals to support our highways and airways, 
President Bush is requesting $900 million for Amtrak. But this funding 
comes with a strong message: Amtrak must undergo significant reform.
    Last week, my Deputy Secretary Michael Jackson and my Federal 
Railroad Administrator Allan Rutter testified before your colleagues in 
the Senate and the House on the Bush Administration's vision for a 
strong national intercity passenger rail system. I believe that America 
deserves a national rail system that is driven by sound economics, 
fosters competition, and establishes a long-term partnership between 
states and the Federal Government.
    Mr. Chairman, this vision cannot be achieved without the 
fundamental reform of Amtrak. Simply put, America can no longer afford 
the status quo, and I am personally committed to working closely with 
the Congress, the states, and industry and labor leaders to develop a 
truly healthy and viable national passenger rail system.
    Finally, I want to share with you President Bush's request for our 
maritime programs. I am pleased that this Committee has recently 
received the jurisdiction of all transportation modes including 
maritime. I believe maritime transportation issues, particularly our 
ports, are critical to the success of a truly intermodal transportation 
system. Waterways, canals and rivers were one of our Nation's first 
transportation systems. From the great explorers Lewis and Clark, to 
today's Ready Reserve Force supporting our troops in the Middle East, 
maritime shipping has moved generations of people and vital supplies.
    The recent strike at our West Coast ports clearly indicated the 
importance of our ports to the national economy. This Congress can 
recognize that one of the true definitions of intermodalism and one of 
the great economic challenges of the next two decades will be our 
ability to move freight quickly and efficiently. To do so means 
recognizing that America is a maritime nation and that moving freight 
intermodally starts at the water's edge with our ports.
    The Maritime Administration (MARAD) continues to support essential 
transportation and intermodal connections for domestic and 
international trade. President Bush requests $219 million to continue 
MARAD's efforts to expand and enhance capacity of our Nation's maritime 
infrastructure. One of MARAD's continuing challenges is the disposal of 
obsolete ships that potentially pose an environmental risk to our 
nation's waterways. The 2004 budget request includes $11.4 million for 
removal of the highest risk ships.
    My prepared remarks focus on only a part of the whole picture. Yet 
each organization within the Department of Transportation contributes 
indispensably to accomplishing the goals I have outlined.
    Let me finish my testimony by returning to the issue of safety. On 
9/11 this Nation was stunned by the degree of destruction and loss we 
felt as a Nation by those horrific events. Each of us look back on that 
day and know exactly where we were when we heard the news. Yet each day 
thousands--thousands--of individuals experience their own moment of 
destruction and loss when the daily toll of death and injury occur on 
our Nation's roads and highways.
    Frankly, we have been too complacent about finding new and 
innovative ways to collaborate and end this plague on America. I invite 
this Committee to join in finding new ways and new energy for better 
solutions. Last year we created a legacy of achievement. We can do it 
again.
    Thank you again for the opportunity to testify today. My management 
team and I will work closely with you, and with the entire Congress, as 
you consider the 2004 budget and I look forward to responding to any 
questions you may have.

                        HIGHWAY REAUTHORIZATION

    Senator Shelby. Mr. Secretary, I have a number of questions 
and I think the other participants here do too.
    We have heard for months that the Department's TEA-21 
reauthorization proposal will be ready for release in 10 more 
days. Mr. Secretary, is the proposal ready to be transmitted to 
the Hill or will it be ready in 10 more days? I am interested, 
Mr. Secretary, not only because of its relevance to this year's 
budget request, but also the Banking Committee, which we have 
authorizing jurisdiction of transit and I as chair, am anxious 
to begin work on the reauthorization, to work with you on that.
    Secretary Mineta. Mr. Chairman, the budget is at the 
printers and we anticipated that well within the 10 days we 
will have all of that material to you.
    Senator Shelby. Thank you. Mr. Secretary, virtually every 
highway safety expert that we have consulted has stated that 
increasing seatbelt usage is the most important way to reduce 
highway fatalities. That is why 2 years ago Senator Murray, who 
chaired the committee then, and I worked together to dedicate 
funds for a national seatbelt paid media mobilization and 
enforcement campaigns, what are commonly referred to as click-
it-or-ticket campaigns. The positive effects of these 
mobilizations to increase seatbelt usage rates are undeniable. 
According to NHTSA's evaluation, seatbelt usage increased by 
8.6 percent.
    In the omnibus we again set aside funds and directed NHTSA 
to continue to fund click-it-or-ticket, and also expand this 
approach to target alcohol-related driving, which we are all 
concerned about. Mr. Secretary, with the demonstrated success 
of the program, why isn't funding specifically identified in 
your budget proposal to continue these campaigns in the year 
2004? In other words, this is a program that Senator Murray and 
I and others have seen the benefit of.
    Secretary Mineta. Mr. Chairman, you are absolutely correct. 
In fact on Monday I am going to be participating in a click-it-
or-ticket kickoff campaign. In our budget, I believe we have 
something like $204 million for occupant safety programs. What 
we want to do is to be able to increase seatbelt use. We have 
18 States that have primary laws on seatbelt use, so one of our 
efforts is to try to get more States to go from secondary to 
primary laws relating to seatbelt use. Florida last week was 
considering it, but unfortunately at the last minute they did 
not take the bill to the floor. Massachusetts, I believe did 
complete their passage of primary seatbelt law usage this last 
week. We have many of the State legislatures that are in 
session where we are working actively with them in order to get 
primary seatbelt use laws on the book.
    Senator Shelby. I know you have a long-term interest, you 
did in your legislative career in safety. You put seatbelt laws 
in use, bringing it up, pushed alcohol driving down. We are 
making progress, are we not, those two together?
    Secretary Mineta. Also on DUI (driving under the 
influence), we are bringing an increased amount in the 2004 
request where we will have $148 million to address impaired 
driving fatalities. This is to increase the number of highly 
visible sobriety checkpoints and other programs where we are 
working with the State highway patrols. In fact when Annette 
Sandberg was at the National Highway Traffic Safety 
Administration (NHTSA) she undertook a very active program 
because of her relationship with the International Association 
of Chiefs of Police and her working knowledge of being able to 
work with State agencies. So we are continuing that program 
under the 2004 budget request that Annette started at NHTSA. We 
are actively pursuing both programs as they relate to seatbelt 
usage and the whole issue of occupant protection, including a 
heavy emphasis on impaired driving.

                                AVIATION

    Senator Shelby. A recent commission on the future of U.S. 
aerospace industry has raised serious questions about the 
competitiveness of U.S. firms in the global marketplace. It 
blamed this situation on, among other things, restrictive 
Government regulations, protectionist policies, and a failure 
to invest in technology innovation. I guess the question comes 
about, is America, Mr. Secretary, at risk of losing its 
position of preeminence in aviation?
    Secretary Mineta. This is a subject that I know that we are 
pursuing within the Department of Transportation and within the 
Administration. That is, to what extent should the Government 
be working with industry in order to promote their specific 
goals in terms of trade practices? Just yesterday there was an 
article in the Wall Street Journal about Airbus moving away 
from Pratt & Whitney and looking at just European engines. That 
is the kind of thing that I think we ought to be looking at in 
terms of our own department.
    Senator Shelby. How can the Transportation Department 
headed by you, how can you help?
    Secretary Mineta. I think we can help in terms of making 
sure that there are not any competitive impairments to our 
industries to be able to work closely with other manufacturers. 
In this instance, if there is a policy on the part of Airbus 
just to deal with, let us say Rolls Royce, or with their own 
other engine manufacturers in Europe, then I believe that kind 
of trade practice is something we ought to be earmarking as a 
subject of our interest.

         INFRASTRUCTURE PERFORMANCE AND MAINTENANCE INITIATIVE

    Senator Shelby. Mr. Secretary, infrastructure performance 
and maintenance initiative. Do you envision this program as a 
new apportionment program for the States or as a new 
discretionary program administered by FHWA?
    Secretary Mineta. The monies will go into the formula 
program. Since the $1 billion is to be used for projects that 
can be started very quickly, and if States do not use their 
apportioned amounts, then we will draw that back and then 
reshuffle that money back out to other States that are using 
the money very quickly. But it will be distributed under the 
formula that goes out to the States. To the extent that the 
States do not use the money, then we will pull it back and, as 
I say, redistribute that money back out to other States that 
are utilizing IPAM for quick projects.
    Senator Shelby. If this is a discretionary program, what 
criteria would you propose to evaluate project eligibility? 
Give us some examples.
    Secretary Mineta. Those projects will be judged very 
similar to how we judge programs under the Surface 
Transportation Program.

            FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION

    Senator Shelby. The FAA reauthorization. What actions will 
FAA and the Department take to ensure the agency operates 
within the amount that you are suggesting in the next 4 years?
    Secretary Mineta. As you know, the operations account is 
something that is a very tight budget issue and Administrator 
Blakey is working on that matter as we speak. We are trying to 
make sure that we can do this without any staff layoffs, and to 
make sure that the safety of the flying public remains 
paramount. The operations budget is very key to that. Because 
of the pressures on the operations budget we are looking at all 
alternatives to make sure that we can deliver safety to the 
American flying public.

                                 AMTRAK

    Senator Shelby. Briefly, Amtrak appropriation. The 2003 
appropriations bill placed a number of new requirements on 
Amtrak's ability to obtain their Federal subsidy. I am 
interested in your thoughts on how those requirements are 
working, the interplay between FRA and Amtrak, and what, if 
any, changes that you would propose to improve your oversight 
of the railroad for the 2004 bill.
    Secretary Mineta. Mr. Chairman, the requirements that were 
placed in the omnibus bill in terms of requiring us to get a 
business plan from Amtrak, and to get definitive cost 
implementation schedules, all of that has now come to the 
Department of Transportation from Amtrak. We have found that 
this has been very helpful in terms of our formulating our 2004 
budget as well as imposing on Amtrak these kinds of 
requirements so that we will have the detailed information we 
need in order to make decisions and choices to fulfill Amtrak's 
needs. The requirements that were laid out were adhered to by 
both Amtrak and DOT, and we have found those to be very, very 
helpful.
    Senator Shelby. Thank you. I will pick it up in another 
round.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Mr. Secretary, your FAA administrator is about to enter 
into new labor negotiations with most of her unions, and one 
thing that could certainly sour those negotiations is the 
current talk we have heard about the potential for furloughs of 
FAA employees in the current fiscal year. Those rumors of 
furloughs persist even if you were given more than 99 percent 
of what you requested for FAA Operations this year. Although 
you just said that you did not want to go that way, if you do 
not, what other belt-tightening measures are you going to 
implement in order to keep everyone on board?
    Secretary Mineta. Because of their needs, the FAA 
Administrator is trying to make sure that she takes a look at 
all of the costs that are under operations. I believe that the 
whole issue of trying to avoid furloughs is paramount as she 
does her work on operations.
    Senator Murray. Can you be more specific about what other 
things you are going to do in order to comply with the amount 
of money that you have if you do not do furloughs?
    Secretary Mineta. For instance, the whole issue of what to 
do on her telecommunications budget within the operations part 
of FAA, is being looked at along with hiring freezes.
    Senator Murray. Is there going to be a reduction in the 
available overtime for air traffic controllers this summer?
    Secretary Mineta. With a sufficient number of air traffic 
controllers, we are hoping to reduce the number of overtime 
hours. We are making sure that we have the right number of air 
traffic controllers so that we can do it without the use of 
overtime hours.
    Senator Murray. There is also another issue of retiring air 
traffic controllers and lack of backfilling for those 
vacancies. In fact we have already had controllers at one of 
our major air traffic control facilities complaining quite 
publicly actually about vacant positions that are not being 
filled and about the skies over Chicago not being safe to fly. 
Are you confident we are going to have the necessary funds to 
fill vacancies at that facility as well as sustain staffing at 
your other air traffic control facilities throughout this year?
    Secretary Mineta. On Chicago specifically, I think there is 
a problem there, but it is an issue of the management there 
utilizing the air traffic controllers in the most efficient way 
possible. I believe, that with the reports that I saw earlier, 
that there are many of the air traffic controllers who just are 
not being utilized properly because of the management team 
there. But nevertheless, I think Chicago is adequately staffed. 
The overall picture is that in order to deal with this 
retirement bubble that is coming up, we are also going to have 
302 air traffic controllers that are included in this budget. 
It takes us about 3 years to have a hired air traffic 
controller to be at a full performance level.
    Senator Murray. I would just say that I think there is a 
real concern that we are not hiring those fast enough to meet 
that 3-year requirement. So we will be watching that carefully.
    Secretary Mineta. We believe that the whole level of 
operations will not be coming back until about the year 2006, 
and because of the reduced number of operations right now, we 
feel what we are doing on hiring air traffic controllers 
anticipates that operations increase when it occurs in 2006.

                                 AMTRAK

    Senator Murray. Let me turn to Amtrak. I earlier pointed 
out that you are seeking a 22 percent cut in the total level of 
funding for Amtrak. Testimony by your Deputy Secretary 
indicates that the Administration views any amount over $900 
million as excessive and unaffordable. You still have not 
submitted the Amtrak reauthorization bill that was due last 
year, but your Deputy Secretary has testified regarding, as I 
said, some of the concepts that are going to be in your 
legislation; concepts including dramatically increased cost-
sharing by the States for receiving Amtrak service, and a 
requirement that Amtrak compete against other potential bidders 
to operate your intercity passenger trains.
    A great deal of Deputy Secretary Jackson's testimony 
focused on the 17 so-called long distance trains that serve the 
vast majority of our country. Amtrak's annual Federal subsidy 
is over $1 billion a year and the company has almost $5 billion 
in total debt. If we eliminated those 17 long distance trains 
tomorrow, it would save the company absolutely nothing this 
year. It would take 5 years before the elimination of those 
trains even saved $200 million. The annual subsidy for these 
trains, while high on a per-passenger basis is a pittance 
compared to the Federal subsidy that is granted to the trains 
operating the Northeast corridor.
    Mr. Secretary, when you finally submit your reauthorization 
proposal for Amtrak, will we find that the Northeast corridor 
trains and the non-Northeast corridor trains will be subject to 
equal treatment?
    Secretary Mineta. Absolutely. The reason that the Northeast 
corridor gets treated differently in certain respects is 
because the underlying tracks do belong to Amtrak there. Our 
intent is to eventually have two entities; one an operating 
entity, namely Amtrak, and the other dealing with the 
infrastructure of rail.
    Senator Murray. Will there be identical cost-sharing 
requirements by the States?
    Secretary Mineta. The State would be required to agree to a 
50/50 match.
    Senator Murray. The Northeast corridor and the non-
Northeast corridor, will their cost-sharing requirements be 
identical?
    Secretary Mineta. Let me ask. In the long-term it would be 
a 50/50 match. It would be the same cost-sharing.
    [The information follows:]

    Recently, the Department of Transportation completed its 
legislative drafting of a bill entitled the ``Amtrak System 
Stabilization, Improvement, and Streamlining through Transition Act.'' 
The purpose of the bill is to undertake a restructuring of intercity 
passenger rail transportation in the United States that will allow it 
to compete successfully with other modes of transportation. We are now 
seeking final administration approval through OMB's legislative 
clearance process. The administration will work to expedite clearance 
as quickly as possible and hopes to transmit the text of the 
legislation to Congress shortly. Following the transmittal of the bill 
to Congress, we can address the question of implementation of the cost-
sharing requirements of the Northeast corridor and the non-Northeast 
corridor.

    Senator Murray. In the long run. Will they be implemented 
on the same schedule?
    Secretary Mineta. I think what we would have to do on the 
Northeast corridor is to bring the tracks up to a level that 
would be satisfactory. Because of the lack of investment in 
infrastructure, the roadbed for the Northeast corridor needs a 
great deal of work. We feel that before we turn it over to the 
Northeast corridor companies, or the States, that we would have 
to bring those railbeds up to a certain standard.
    Senator Murray. Mr. Secretary, Amtrak is currently carrying 
$3.8 billion in long-term debt and another $1 billion in short-
term debt. It is estimated that roughly 65 percent of that debt 
is attributable to improvements that have been made to that 
Northeast corridor. Your Amtrak reauthorization proposal is 
going to propose the development of a Federal-State compact to 
operate that Northeast corridor with the States taking on 
considerable additional requirements to operate and maintain 
that corridor. Will you be expecting this new compact between 
the Federal Government and the States in the Northeast corridor 
to take over the 65 percent of Amtrak's outstanding debt which 
is attributable to the improvements that have been made in the 
Northeast corridor?
    Secretary Mineta. Frankly, we have not determined that 
issue yet on the assumption or transfer.
    Senator Murray. I think it is a very important question, 
Mr. Secretary, and we would like to hear from you as soon as 
possible. If they are not going to take the debt, who is going 
to pay Amtrak's debts when you go into that compact? So I hope 
to hear from you.
    [The information follows:]

    Recently, the Department of Transportation has completed its 
legislative drafting of a bill entitled the ``Amtrak System 
Stabilization, Improvement, and Streamlining through Transition Act.'' 
The purpose of the bill is to undertake a restructuring of intercity 
passenger rail transportation in the United States that will allow it 
to compete successfully with other modes of transportation. We are now 
seeking final administration approval through OMB's legislative 
clearance process. The administration will work to expedite clearance 
as quickly as possible and hopes to transmit the text of the 
legislation to Congress shortly. Following the transmittal of the bill 
to Congress, we can address the question of who is going to pay 
Amtrak's debts on the Northeast corridor.

                             SOUND TRANSIT

    Senator Murray. I just have a few seconds left. I do have 
one other question I want to ask you about, Mr. Secretary, 
because Seattle is now the third most congested city in the 
Nation. Two years ago, you recommended that the proposed 
Seattle light rail project take a timeout for the purpose of 
getting its house in order, and getting the cost and scope of 
the project under control. I joined with you in that decision 
and with the help of your FTA Administrator and Inspector 
General, a lot of progress has been made. I have worked very 
carefully with Sound Transit in Seattle to ensure that they 
have reformulated their light rail project so that you and your 
staff are fully satisfied that their cost estimates and their 
construction plan are achievable. This project certainly 
reached a major milestone when your administration included $75 
million in your budget for 2004 and announced your plan to 
revise the existing Full Funding Grant Agreement.
    Can you tell me this morning, based on what you know about 
the improvements that have been made in the planning and 
financing of this project, do you currently have any 
reservations surrounding your request for $75 million in 2004?
    Secretary Mineta. Not at all. We are very confident about 
the revised plan and we appreciate your work in working with 
the Sound Transit System. I personally have a great deal of 
confidence in the Executive Director of the system there. I 
think she has gone a long way in helping both the system as 
well as the working relationships between FTA, your office, and 
the Sound Transit System, and has been able to come up with a 
great plan.
    Senator Murray. I agree. Can you tell me when you expect a 
revised Full Funding Grant Agreement to come to Capitol Hill on 
that project?
    Secretary Mineta. That is something I will have to submit 
to you. I am not sure that we have a set schedule yet.
    [The information follows:]

    On January 19, 2001, the Department of Transportation approved the 
Full Funding Grant Agreement (FFGA) for the Central Puget Sound 
Regional Transit Authority. At the time the project was approved, major 
changes in the project's tunnel alignment were being discussed. The 
Department has withheld funding for the project until a number of 
financial and timing issues are resolved and Congress had time to 
adequately review the grant agreement. On July 7, 2003, the 
Department's Office of Inspector General (IG) issued a report on its 
audit of the project. The Federal Transit Administration (FTA) has 
concurred with the IG's recommendation, stating that it will request 
that the Sound Transit Board of Directors formally agree to actions 
specified in the IG's recommendations. FTA will closely monitor Sound 
Transit's continuing financial responsibility to operate, maintain and 
reinvest in its existing transit system as well as the Initial Segment, 
as is the practice under all FFGAs. Further, FTA will not execute the 
FFGA prior to written notification from the Sound Transit Board of 
Directors of their agreement to take the actions specified by the IG.

    Senator Murray. All right. Thank you very much, Mr. 
Secretary, and thank you, Mr. Chairman.
    Senator Shelby. Senator Campbell.

                            HOURS OF SERVICE

    Senator Campbell. Thank you, Mr. Chairman. I would like to 
ask the Secretary one general question about hours of service 
and something specific to Colorado before my time is up.
    Mr. Secretary, very frankly, I have to tell you, I think 
the people that wrote the revision of hours of service neither 
know the significance of the trucking industry in America or 
the precarious position they are in; either one. I understand 
that over 1,000 companies, trucking companies went out of 
business last year, went into bankruptcy. I know that 
repossession of trucks are at an all-time high. Even with that, 
there are a shortage of drivers even for the remaining trucks. 
It is something like 95 percent of everything that moves in 
America, every portable thing that you can think of travels on 
a truck. So I think it is a very significant industry and I am 
really concerned about this change of hours of service.
    I would like you to, if you could, tell me, tell the 
committee where the rulemaking has changed and where we are on 
it.
    Secretary Mineta. Senator Campbell, as you know, this rule 
was released about 3 weeks ago, I believe. The effective date 
of the Hours of Service rule will be January 4, 2004. I think, 
from what I can gather, since we had issued the original notice 
of proposed rulemaking we got something like 53,000 comments 
during the comment period. The Federal Motor Carrier Safety 
Administration went through all of those comments.
    Senator Campbell. How many of the 53,000 would you say were 
supportive or opposed to changing?
    Secretary Mineta. As I recall, we had a substantial 
percentage of the 53,000 that were supportive of the rule. This 
is the first time since I believe 1939, that we have revised 
the hours of service rules in a significant way. This rule is 
supported by the American Trucking Association. I think the 
major opposition comes from the independent drivers.
    Senator Campbell. The ATA represents the large fleets. I 
think it is called OOIDA or something, represents the little 
guys, the ones I am really concerned about losing their homes.
    It is also my understanding though that these hours of 
service are almost impossible to monitor with the Mexican 
trucks that will be coming north now under the NAFTA agreement. 
They have a log book, but they do not have to keep up with them 
in Mexico.
    Secretary Mineta. They will be subjected to the same 
requirements once they are able to come in to the United 
States. We intend to enforce the law on hours of service 
against the Mexican drivers as we would U.S. drivers, or 
Canadian drivers.
    Senator Campbell. Thank you. I guess the proof will be in 
the pudding to see if it works or not. I am absolutely 
convinced though it is not going to work to the benefit of 
either drivers or small truck owners, or to the country at 
large that has to do a lot of shipping.

                    COLORADO BLOOD-ALCOHOL STANDARDS

    Let me ask just a couple related to Colorado. Colorado is 
one of the few States that has a two-tier system relating to 
blood-alcohol content. We have a driving while ability impaired 
is a lesser charge where the blood alcohol content is less than 
.05 percent and .09 percent. During the authorization of TEA-21 
Federal funds were tied to each State requiring them to lower 
the blood alcohol content to .1 percent if the States did not 
change their laws. If they did not then the States were going 
to be penalized and funds withheld. That is going to cost 
Colorado about $50 million a year.
    If the Colorado law already requires a stricter requirement 
under blood alcohol content, why should the State be penalized, 
if it is more strict than the Federal requirement now?
    Secretary Mineta. Senator, I will have to get together with 
you on that because I am not familiar with the requirement.
    [The information follows:]

    To qualify for an incentive grant under Section 163, and to avoid a 
sanction under Public Law 106-346-Appendix, sec. 351, 114 Stat. 1356A-
34, 35 (Section 351), a State must enact and enforce a law that 
provides that any person with a blood alcohol concentration of 0.08 
percent or greater while operating a motor vehicle in the State shall 
be deemed to have committed the per se offense of driving while 
intoxicated or an equivalent per se offense.
    The State of Colorado does not currently have a driving while under 
the influence (DUI) per se law that is stricter than the requirements 
of 23 U.S.C. Section 163 or that meets the requirements of Section 163. 
The State's standard DUI per se offense applies at .10 BAC (Colo. Rev. 
Stat. Sec. 42-4-1301(6)(a)). The .05 to .09 provisions relate to 
permissible inferences that are not a part of Colorado's DUI per se 
law. Rather, the inferences allow the evidence of a person's blood 
alcohol concentration to be deemed relevant and possibly admitted in a 
prosecution for DUI or driving while ability impaired (DWAI). These 
inferences are merely permissible, not mandatory. Accordingly, these 
provisions cannot be utilized by the State of Colorado to demonstrate 
compliance with the requirements of Section 163.

                                 ASR-11

    Senator Campbell. All right, I appreciate that. One other 
one you may have to look up. We have an airport that has been 
waiting for years and years to get a radar system called an 
ASR-11. I know Senator Murray also has been waiting, and 
Senator Stevens too. I understand that that radar system, there 
are some concerns about its viability and that has really 
halted the installation. Could you give me a status report on 
the certification of that ASR-11? You probably do not have that 
right there in your notes either, but if you could get back to 
me. The county that I have been working on for years trying to 
get one is called Eagle County, right in the middle of those 
mountains. Very predictably dangerous place to land when we 
have high peaks all around and bad snowstorms and so on. So I 
would appreciate it if you could----
    Secretary Mineta. I will get back to you on that, sir.
    [The information follows:]

    ASR-11 is a joint FAA and Department of Defense procurement program 
intended to replace aging Airport Surveillance Radar Models 7 and 8, 
which are nearing the end of their service life and becoming more 
difficult to maintain. The ASR-11 system is an integrated system that 
includes a primary radar system and associated beacon system. The ASR-
11 will provide digital radar input to new automation systems such as 
Standard Terminal Automation Replacement System (STARS).
    Results of operational tests have proven the system suitable for 
operational use. The FAA proposes to formally certify the ASR-11 system 
for national use by August 2003.
    The FAA has met with Eagle County Airport and Eagle County 
Commissioner representatives to discuss possible surveillance solutions 
to address Eagle County's air traffic surveillance needs. Work is 
continuing with local and regional personnel to define and evaluate 
potential improvements. A recommendation and business case is expected 
by November 2003.

    Senator Campbell. All right, thank you. I have no further 
questions, Mr. Chairman.
    Senator Shelby. Senator Brownback.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. Thank you, Mr. Chairman. I appreciate 
being able to join your subcommittee for the first time. It is 
a pleasure to be here. Mr. Secretary, glad to have you here as 
well.
    Secretary Mineta. Thank you, sir.

                           AVIATION INDUSTRY

    Senator Brownback. I want to focus my comments on two 
areas. One is on the aviation industry itself. I understand the 
chairman made some comments about this as well. Wichita, in my 
State, the general aviation manufacturers in that State are 
headquartered in Kansas. Boeing has a huge plant in the State. 
This has been an industry that has been decimated in recent 
times. We had 30 percent layoffs, employment layoffs. That is 
bad enough. But it is an industry that is somewhat use to the 
cyclical nature. At least the general aviation manufacturers, 
not so much Boeing.
    But when I met with the industry leaders in December 
something really troubling came up. I had all the leaders of 
the industry in a meeting and they were saying--they are used 
to in general aviation, the gamma groups are is the used to 
kind of an up and down nature of the industry.
    But what they are seeing take place is that as they are 
strapped for cash, they are needing research money to develop 
the next wave of products, the next wings, the next engines, 
the next fuselage of the products. They are having countries 
come to them and saying, we will pay for the research and the 
development of the wing, a Japanese company but it is backed by 
the government. Saying, we will pay for the development of the 
wing of this new product, but you have to manufacture the wing 
then in Japan.
    Or China is doing a similar sort of push where the 
government is paying for the research and then using that as a 
hook to leverage the jobs coming to that country, to where the 
industry may be fundamentally restructuring now, as we speak, 
because the companies are strapped for cash. They are strapped 
to make the next wave of products. They need the research money 
to get the next wave of products, and they are getting it from 
foreign governments that are being backed by companies there 
that are then saying, we have to manufacture the wing or the 
engine or whatever the piece may be.
    So we may end up being just an assembler of aviation 
products rather than the developer and lose all the jobs 
underneath the system. So at the end of the day, the product 
still comes out of Wichita, but it did not really come out of 
Wichita. It came out of China or Japan or India or Europe.
    To me this is a very troubling trend. We have been a 
leading aviation researcher, manufacturer since flight began, 
since the Wright brothers. It seems to me that we are on the 
edge of losing that. Five years ago, if the numbers I have are 
correct, we put about $1 billion a year into aviation research 
as a government. This is a combined set of sources. NASA had a 
major piece of that. Now we are about $500 million a year, so 
we have cut that in half at the same time the rest of the world 
is investing.
    Now you can say, okay, it is another manufacturing set of 
jobs; maybe we are going to end up losing those too. But these 
are the highest wage, highest skilled manufacturing jobs in the 
world. People bid heavily for them. What I think we are doing 
is we are in the process of losing them by virtue of not paying 
attention.
    If we were losing them just as direct company on company 
competition, I can handle that. But not if it is a government-
subsidized research basis on it, and then the company coming in 
privately. If that is the case, we either should back them down 
in trade negotiations or we should subsidize.
    So I am coming to you with this issue. I put forward a bill 
with Senator Hollings and the Commerce Committee, Second 
Century of Flight. Calls for a coordinator on the overall 
aviation research. It calls for more investment in aviation 
research. It calls for incentives to draw the next wave of 
engineers into aviation research. It is Senate bill 788. It has 
cleared through Commerce Committee as the authorizing. All but 
one title of it has cleared through the Commerce Committee. I 
would ask that you would look at that and I would hope would 
aggressively get behind it or something like it, because we are 
really losing this business.
    And I would appreciate it if you would be willing to 
consider bringing in these aviation business leaders in a 
roundtable. I think they would be more than willing to come, or 
gather at the conference, a conference call, and ask them the 
same questions about the restructuring of the industry, because 
this is happening right below the surface. The company stays in 
Wichita but the product and the jobs are actually coming in 
from other places. It should not be happening that way. I would 
hope you could back more in the way of aviation research or 
specifically this bill.
    If you would care to comment, I would appreciate it.

                       AVIATION RELATED RESEARCH

    Secretary Mineta. As I understand it, Titles I, II, and III 
of your bill were incorporated into the aviation 
reauthorization legislation that the Commerce Committee took up 
last week.
    Senator Brownback. That is right.
    Secretary Mineta. We look forward to working with the 
committee on the structure as you have outlined it in S. 788.
    This issue goes back to something earlier that the Chairman 
mentioned and Senator Murray has an interest in as well. That 
is, to what extent can we do Federal research, without being 
accused of subsidizing the aviation industry? This is something 
that we deal with the European Union on all the time. When we 
went through the Aviation Stabilization Act and we reimbursed 
airlines for losses in that period subsequent to September 
11th, the Europeans were complaining that we were subsidizing 
our airlines in terms of their operations. All we were saying 
was, we were reimbursing them for their operational losses as a 
result of my grounding all the planes on the 11th of September, 
and for that subsequent period before the airlines got back 
into operation.
    Whenever we get into research, we do research on wings and 
to the extent that Boeing uses that research to build a plane, 
or Gulfstream, or Beech, or anyone else, then we get accused of 
subsidizing the firms. The earlier question that the Chairman 
was asking is something that I want to get into because I think 
that, as you have indicated, we have somewhat lost our 
technology edge in terms of aviation.
    I remember being on the Science Committee in the House and 
I remember saying to Dan Goldin, what happened to the ``A'' in 
NASA? It was National Aeronautic and Space Administration 
(NASA), but the aviation budget was going down, down, and down. 
I was fearful that it was going down so much that Langley, 
Wright-Patterson, and Ames Research Center at Moffett Field 
would also be cut back. I believe that the problem with NASA, 
is that their research budget still goes down because all of it 
is being sucked up by the space station. The FAA's research 
program is done mostly by NASA.
    Senator Brownback. If I could ask you, because the time is 
so short, if your agency could really start a study of what is 
taking place, because if other countries are doing this, then 
we should start a trade action against them. Particularly 
Boeing, we are down to now 50 percent or below of market share, 
and that is all by a subsidized Airbus that has come in and 
taken that market share. We should be taking trade actions 
against Airbus. I would hope your agency would push on that. Or 
if we are not going to do that, that we would equal the 
European subsidy and then make them sue us in the trade courts.
    Secretary Mineta. You are absolutely correct, Senator 
Brownback. About 4 months ago, I had asked our Under Secretary 
for Policy to start taking a look at this whole issue. Then 
yesterday, there was a article in the Wall Street Journal about 
Airbus pulling back from Pratt & Whitney so they could look 
exclusively at European engines. That prompted me to tear that 
article out and send it to Jeff Shane to, again, make sure that 
we are pursuing this issue.
    [The information follows:]

    The Department of Transportation continues to closely monitor 
issues concerning possible subsidies and potential unfair trade 
actions. In all cases of possible unfair trade practices, the 
administration seeks compliance with international trade obligations 
and is prepared to employ appropriate bilateral and World Trade 
Organization mechanisms to achieve that outcome.

    Senator Brownback. I would urge it. I have got an issue I 
will submit to you for the record of short line railroads and 
the need for help on short lines, because on moving freight 
that are key for a State like mine. But I will submit that.
    Mr. Chairman, thank you.
    Senator Shelby. Thank you, Senator.

                          NEW ENTRANT PROGRAM

    Mr. Secretary, I have a few more questions. You have been 
very patient. The FMCSA budget proposes a total of $33 million 
for implementation of the new entrant program. Given that there 
are approximately 50,000 new entrants every year now, how many 
audits does the Department actually expect to conduct if this 
program is fully funded?
    Secretary Mineta. Mr. Chairman, I am not sure.
    Senator Shelby. Do you want to get back with me on that?
    Secretary Mineta. I will get back to you on that, sir.
    [The information follows:]

    FMCSA will conduct safety audits on all new entrants within the 
first 18 months of carrier operations consistent with current law and 
regulation. The agency anticipates that 31,800 audits will be conducted 
in fiscal year 2004. This will be accomplished using both Federal and 
State safety inspectors: State inspectors will conduct an estimated 
19,800 audits and Federal personnel an estimated 12,000 audits. The 
balance of audits will be completed within the first 6 months of the 
following fiscal year, consequently meeting the 18-month legislative 
requirement to conduct audits on the full estimated annual population 
of 50,000 carriers. This program will continue on a cyclical basis as 
approximately 40,000-50,000 new entrants are expected to apply for 
interstate operating authority annually.

    Senator Shelby. I just want to add this to it. If we cannot 
expect to conduct an audit of every new entrant, what 
consideration has been given to phasing in the program or 
setting up some sort of criteria for prioritizing these new 
entrants that will be audited? You can do that for the record.
    Secretary Mineta. We will include that as well.
    [The information follows:]

    FMCSA will conduct safety audits on all new entrants. With the 
funds requested in fiscal year 2004, FMCSA will ramp-up the New Entrant 
program by hiring 67 contracted auditors and 32 oversight personnel; 
make facilities improvements; and train Federal, contract, and State 
staff.
    Audits will be conducted on a first in/first out rolling basis. New 
entrants will be audited no sooner than 90 days after they start 
operating. This will provide FMCSA with a 90-day window to obtain 
roadside inspection data from the new entrants, as well as allow 
carriers time to stabilize their safety processes after starting their 
new businesses. FMCSA will contact these carriers at the 90-day point 
with the intent of completing the audit as close to that point as 
possible.
    By the end of the third quarter of fiscal year 2004, the program 
should be operating at full capacity and FMCSA plans to cover any 
backlog of audits not completed in fiscal year 2004 during the first 6 
months of fiscal year 2005 in order to meet the 18-month legislative 
requirement to conduct audits on the full population of carriers 
subject to an audit.

                MARITIME ADMINISTRATION TITLE XI PROGRAM

    Senator Shelby. Title XI, guaranteed loan program; get into 
that. What plans, if any, do you have to help assist the 
shipping industry in securing financing? You are familiar with 
the program, the MARAD program?
    Secretary Mineta. Yes, sir. The only one we have right now 
is the Title XI program.
    Senator Shelby. It has taken a downturn. Since 2000, the 
program has paid out almost $500 million in defaulted loans. 
What steps are you taking to help get this program back on 
track?
    Secretary Mineta. This has been a real issue because I 
think we have had defaults amounting to something like $489 
million.
    Senator Shelby. It is a lot of money, $500 million.
    Secretary Mineta. Yes, sir. I believe we are requesting 
$4.5 million in the 2004 budget in this program. We are looking 
at the recommendations that will be forthcoming from an 
Inspector General report on this whole issue of the Title XI 
program.

                         FAA OPERATIONAL ERRORS

    Senator Shelby. In 2001, FAA began replacing air traffic 
control supervisors with controllers who assume supervisory 
duties and were designated as controllers in charge (CIC). 
According to an Inspector General's April 2003 report, the 
number of operational errors that occurred while a CIC was 
supervising an area in calendar year 2001 increased 46 percent 
compared to calendar year 2000. Has FAA determined the reason 
for the increase? If so, do you know what corrective actions 
the FAA leadership have taken or has planned? If you do not 
know offhand, you can get back to me.
    Secretary Mineta. Let me get that for the record.
    [The information follows:]

    The Federal Aviation Administration investigates all incidents 
involving operational errors. In the course of these investigations, 
the agency looks for causal factors and makes appropriate adjustments 
to correct identified problems, which may affect safety. Since the CIC 
expansion in January 2001, FAA has not seen the program impact safety 
and has not seen an increase in operational errors. In fact, the 
records show an overall decrease in operational errors of 11 percent 
from fiscal year 2001 to 2002. Below is a table that reflects the data 
for fiscal year 2001-May, 2003.

------------------------------------------------------------------------
                                                    Operational Errors
------------------------------------------------------------------------
Fiscal year 2001...............................                    1,193
Fiscal year 2002...............................                    1,061
Fiscal year 2003 (through May).................                      714
------------------------------------------------------------------------

    Senator Shelby. Absolutely. Forty-six percent is a big 
number.

                          AIRPORT COMPETITION

    Airport competition. Secretary Mineta, AIR-21 included a 
provision that prevents certain large and medium hub airports 
from receiving AIP funds or collecting new PFCs unless they 
submit competition plans to the Department of Transportation. 
It is my understanding that each year these airports must 
submit competition plans on an annual basis and are required to 
provide detailed information on an extensive list of items.
    I will support any proposal that will increase competition 
in the commercial airline industry. Are you aware if air 
carriers have received access to gates and other facilities as 
a result of the competition plan requirements?
    Secretary Mineta. I know the competition plans are being 
submitted, that those plans have opened up opportunities for 
new entrant carriers----
    Senator Shelby. It is so important; competition.
    Secretary Mineta. Where you have a dominant carrier, they 
will probably be at gates 1 through 43, and the new entrant 
carrier will be at gate number 89. That is part of the whole 
issue that we are trying to deal with in having the airports 
submit these competition plans, so that we can make sure that 
the playing field is level.
    Senator Shelby. Absolutely.
    Secretary Mineta. Especially today with traffic being down.
    Senator Shelby. Is it having an effect yet? Because that is 
the bottom line.
    Secretary Mineta. I do not think so yet, because a number 
of the gates are still retained by carriers and they will not 
release them.
    Senator Shelby. They will not release them although they do 
not need them?
    Secretary Mineta. Right. But, I suppose where the airlines 
have what they call a majority in interest clause, the dominant 
carrier can be pretty aggressive in determining when they 
release those gates.
    Senator Shelby. Absolutely. We found that out here from 
oversight. But at the same time, it stifles competition.
    Secretary Mineta. That is right. You are absolutely 
correct.
    Senator Shelby. What we are interested in, and you are too, 
is competition in the marketplace.
    Secretary Mineta. Right.
    Senator Shelby. We all benefit, do we not? All the airlines 
will ultimately benefit because they will have to change their 
business model to compete, or disappear. That is the nature of 
the business. It is tough.
    I saw that the Department included a placeholder for 
competition plans in its FAA reauthorization proposal. Are you 
proposing to expand, Mr. Secretary, the current requirements? 
If so, is it necessary?
    Secretary Mineta. I am not sure what you are referring to 
under placeholder.
    Senator Shelby. Competition plans, we saw that the 
Department included a placeholder for competition plans in its 
FAA reauthorization proposal. The question is, are you planning 
to, or proposing to expand the current requirements? The 
placeholder, we wonder what is going to happen there?
    Secretary Mineta. Let me find out. Mr. Chairman, it is my 
understanding that the Administration, I assume through the 
Domestic Policy Council, is looking at the whole issue of the 
airline industry as it is today. So part of this whole effort 
is to deal with the competition that exists. It is my 
understanding that this was just a placeholder put in place for 
the Administration to eventually come up with a program 
relating to competition in the airline industry.
    [The information follows:]

                 U.S. Department of Transportation,
                 Office of the Secretary of Transportation,
                                      Washington, DC, May 20, 2003.
The Honorable John McCain,
Chairman, Committee on Commerce, Science, and Transportation, United 
        States Senate, Washington, DC, 20510.
    Dear Mr. Chairman: The Department of Transportation requests your 
Committee's consideration of the enclosed two legislative proposals for 
inclusion in pending bills to reauthorize activities of the Federal 
Aviation Administration (H.R. 2115 and S. 824).
    The two proposals are intended to strengthen the ability of United 
States air carriers to compete domestically and internationally. The 
effects of September 11 on airline traffic and, consequently, on the 
financial health of U.S. air carriers have been exacerbated by the war 
in Iraq and by SARS. Given the growing external pressures to which 
aviation is being subjected, the Department has continued to identify 
ways to give U.S. airlines the tools necessary to respond to market 
forces since Secretary Mineta transmitted our FLIGHT-100 Act proposal 
to Congress in March.
    The proposal to allow greater access to foreign capital markets 
would expand the resources potentially available to U.S. carriers as 
they restructure their operations in response to the challenges of 
today's domestic and international aviation realities. Raising the 
ceiling on the percentage of voting shares that can be owned by foreign 
citizens (without changing the requirement that U.S. carriers be 
controlled by U.S. citizens) would be consistent with foreign 
investment restrictions that apply to airlines in European Union 
countries and those of other U.S. bilateral partners. Achieving a 
consistent approach in the investment area could facilitate the United 
States' reaching new aviation agreements, thus expanding opportunities 
for U.S. carriers.
    The second proposal would expand the number of airports covered by 
the requirement (added by AIR-21 in 2001 to title 49) requiring certain 
large and medium hub airports to submit a plan for increasing 
competition along with any PFC request or AIP grant application. The 
expansion would be from approximately 38 to 50 airports, including 
large gateway airports that are not now covered.
    The Department has devoted a considerable amount of time to 
reviewing competition plans and offering suggestions as to what actions 
airport officials could take to enhance competitive airport access. As 
a result of the plan filings and suggestions by the Department, some 
positive pro-competitive steps have been taken at the 38 airports 
required to file a plan. Such steps include making gates and related 
facilities more available and access requirements more transparent, 
pre-approving leasing and subleasing arrangements, monitoring gate use, 
converting exclusive-use gates to common-use and recapturing unutilized 
gates. Low-fare air carriers benefited from the competitive actions by 
airport officials. In this regard, at 29 of the 38 airports, new or 
expanded entry/service has occurred. Large air carriers have also 
benefited through new lease arrangements and gate-change 
accommodations.
    To build on the success of the AIR-21 competition plan requirement, 
we are proposing to expand the number of airports required to file a 
plan to include all large hub airports. This expansion will capture 
several facility-constrained airports. We are also proposing that 
airports (1) actively monitor how frequently their gates are used, (2) 
develop uniform gate-assignment protocols and notify all carriers when 
gates become available, (3) adopt fair sublease arrangements, (4) 
develop procedures to disapprove proposed subleases that would restrain 
competition, (5) prevent the use of majority-in-interest clauses that 
limit the airport's ability to develop projects necessary to enhance 
carrier access, and (6) implement dispute resolution procedures. These 
additional requirements will provide a framework by which all air 
carriers are given full, fair and transparent competitive airport 
access.
    We appreciate the Committee's support to date for the Department's 
proposal transmitted on March 25 and would ask for favorable 
consideration of the enclosed proposals. The Office of Management and 
Budget advises that it has no objection, from the standpoint of the 
Administration's program, to the submission of these proposals to the 
Committee for its consideration.
            Sincerely yours,
                                                  Kirk K. Van Tine.

SEC. __. AIR CARRIER CITIZENSHIP.

    Section 40102(a)(15)(C) of title 49, United States Code, is amended 
by striking ``75'' and inserting ``51''.

SEC. __. COMPETITION PLANS.

    (a) Section 47106(f) of title 49, United States Code, is amended--
            (1) in paragraph (2) by--
                    (A) adding the following after ``gate-assignment 
                policy,'': ``requests for access or accommodation by 
                new entrant and incumbent carriers, responses thereto, 
                and reasons for any denials of such requests,''; and
                    (B) adding a new sentence at the end of the 
                paragraph as follows: ``A competition plan under this 
                subsection shall also include a justification as 
                reasonable and not unjustly discriminatory (i) for any 
                differential or variance in fees and/or terms of use 
                for gates and associated facilities (including 
                overnight parking) charged to existing and prospective 
                carriers, respectively; and (ii) for any failure to 
                provide access, such as by undertaking the activities 
                listed in subparagraph (4) below within 90 days of a 
                carrier's request.'';
            (2) in paragraph (3), by striking subparagraphs (A) and (B) 
        and inserting the following:
                    ``(A) that has more than .25 percent of the total 
                number of passenger boardings each year at all such 
                airports and at which 1 or 2 air carriers control more 
                than 50 percent of the passenger boardings; or
                    ``(B) that has more than 1 percent of the total 
                number of passenger boardings each year.''; and
            (3) by inserting at the end new paragraphs (4), (5) and (6) 
        as follows:
            ``(4) Gate availability.--In the case of a covered airport, 
        as defined in paragraph (3) of this section, the airport owner 
        or operator shall demonstrate that it will make gates and 
        related facilities (including overnight parking) available, and 
        otherwise provide access to new entrant and other requesting 
        carriers by, e.g., undertaking the following activities:
                    ``(A) developing dispute or complaint resolution 
                procedures including timelines, to resolve complaints 
                by new entrants or other requesting carriers about 
                access;
                    ``(B) specifying and publishing requirements for a 
                new entrant to acquire a gate and for an incumbent 
                carrier to expand;
                    ``(C) providing an airport competitive access 
                liaison;
                    ``(D) developing procedures to monitor actual 
                utilization of all gates and overnight parking 
                positions and to make this data available to the 
                Secretary and to the public;
                    ``(E) maintaining a uniform policy of notifying all 
                carriers (both incumbents and potential new entrants), 
                of gate availability and having fair and transparent 
                gate assignment protocols, including timelines for 
                access;
                    ``(F) adopting comparable policies and procedures 
                for subleasing of gates by tenant carriers;
                    ``(G) adopting dispute resolution procedures, 
                including timelines, for disputes about sublease fees, 
                terms, and conditions, including ground handling;
                    ``(H) adopting caps on sublease fees and ensuring 
                that non-tenant fees do not include charges for 
                unneeded services;
                    ``(I) adopting policies to review and approve or 
                disapprove proposed subleases with explicit authority, 
                in current and future lease agreements, to disapprove 
                proposed subleases that would restrain competition by a 
                new entrant air carrier, a carrier offering competitive 
                service, or a carrier that is not dominant at the 
                airport;
                    ``(J) making majority-in-interest clauses in air 
                carrier lease and use agreements inapplicable to an 
                airport development project necessary to enhance access 
                by an air carrier; and
                    ``(K) posting the submitted competition plans 
                required under this subsection and the comments of the 
                Secretary in a publicly available location, including a 
                website if such internet website exists.
            ``(5) Plan approval.--The Secretary may disapprove a 
        competition plan that is not in accordance with this subsection 
        and guidance established by the Secretary. The Secretary shall 
        provide written notification of the disapproval to the sponsor, 
        which shall include specific findings regarding the basis for 
        the disapproval.
            ``(6) Witholding approval.--(A) The Secretary may withhold 
        approval of an application under this subchapter for amounts 
        apportioned under section 47114(c) and (e) of this subtitle 
        following disapproval of a plan under subparagraph (4) only 
        if--
                    ``(i) the Secretary provides the sponsor or a 
                covered airport 30 days to address specific findings in 
                the notice of disapproval;
                    ``(ii) the Secretary provides the sponsor of a 
                covered airport an opportunity for a hearing; and
                    ``(iii) not later than 180 days after the later of 
                the date of the application or the date the Secretary 
                notifies the sponsor of the disapproval of the plan,
            ``(B) The 180-day period may be extended by--
                    ``(i) agreement between the Secretary and the 
                sponsor; or
                    ``(ii) the hearing officer if the officer decides 
                an extension is necessary because the sponsor did not 
                follow the schedule the officer established.
            ``(C) A person adversely affected by an order of the 
        Secretary withholding approval may obtain review of the order 
        by filing a petition in the United States Court of Appeals for 
        the District of Columbia Circuit or in the circuit in which the 
        project is located. The action must be brought not later than 
        60 days after the order is served on the petitioner.''
    (b) Section 47107(a) is amended--
            (1) in paragraph (1) at the end of the sentence, by adding 
        ``, which includes providing competitive access.'';
            (2) by adding at the end the following new paragraph:
            ``(21) in the case of a covered airport, as defined in 
        section 47106(f)(3), the airport owner or operator will 
        demonstrate that it will make gates and related facilities 
        (including overnight parking) available and otherwise provide 
        access to new entrants and other requesting carriers by 
        undertaking the following activities:
                    ``(A) developing dispute or complaint resolution 
                procedures, including timelines, to resolve complaints 
                by new entrants or other requesting carriers about 
                access;
                    ``(B) specifying and publishing requirements for a 
                new entrant to acquire a gate and for an incumbent 
                carrier to expand;
                    ``(C) appointing an airport competitive access 
                liaison;
                    ``(D) developing procedures to monitor actual 
                utilization of all gates and related overnight parking 
                positions and to make this data available to the 
                Secretary and to the public;
                    ``(E) maintaining a uniform policy of notifying all 
                carriers (both incumbents and potential new entrants), 
                of gate availability, and having fair and transparent 
                gate assignment protocols, including timelines for 
                access;
                    ``(F) adopting comparable policies and procedures 
                for subleasing of gates by tenant carriers;
                    ``(G) adopting dispute resolution procedures, 
                including timelines, for disputes about sublease fees, 
                terms, and conditions, including ground handling;
                    ``(H) adopting caps on sublease fees and ensuring 
                that non-tenant fees do not include charges for 
                unneeded services;
                    ``(I) adopting policies to review and approve or 
                disapprove proposed subleases with explicit authority, 
                in current and future lease agreements, to disapprove 
                proposed subleases that would restrain competition by a 
                new entrant air carrier, a carrier offering competitive 
                service, or a carrier that is not dominant at the 
                airport;
                    ``(J) making majority-in-interest clauses in air 
                carrier lease and use agreements inapplicable to an 
                airport development project necessary to enhance access 
                by an air carrier; and
                    ``(K) posting the submitted competition plans 
                required under section 47106(f) and any comments of the 
                Secretary on the plan in a publicly available location, 
                including a website if such internet website exists.''.
    Sec.__. Air Carrier Citizenship. This provision raises the maximum 
percentage of an air carrier's voting stock that can be held by foreign 
citizens (in the aggregate) from 25 percent to 49 percent. The change 
is intended to create greater access for U.S. airline companies to the 
global capital marketplace without affecting any requirements in 
current law or Department of Transportation precedent that are intended 
to ensure that U.S. airlines are controlled by U.S. citizens. The 
amendment would bring U.S. foreign investment restrictions into line 
with those of the European Union and other countries.
    Sec. __. Competition Plans. This section would expand covered 
airports to all large hub airports in addition to those medium hubs 
that have two or less carriers with 50 percent or more of boardings. It 
would clarify that compliance with the existing AIP grant assurance on 
reasonable access includes providing competitive access. It also would 
require a new AIP grant assurance to increase opportunities for 
competition at covered airports and the use of gates and related 
facilities at these airports by requiring covered airports to develop 
dispute resolution procedures, publish requirements for gate access, 
appoint a competitive access liaison, monitor usage of gates and 
aircraft parking positions, notify carriers of the availability of 
gates and of sublease opportunities on a uniform basis, adopt fair 
protocols for gate assignment and for processing of subleases, adopt 
caps on sublease fees, develop procedures to disapprove proposed 
subleases that would restrain competition, prevent the use of majority-
in-interest clauses to airport development projects necessary to 
enhance air carrier access, and to post the competition plan on the 
airport's web site. Covered airports would be required to provide 
information on these initiatives in their competition plans and to 
justify any differences in the fees and/or terms of use imposed on 
existing and prospective carriers, respectively, and on any failure to 
provide access within 90 days of a carrier's request. Non-covered 
airports would be encouraged to adopt these initiatives and procedures 
and would be expected to rectify any practice that is found to hinder 
access. This section would also provide explicit authority to the 
Secretary for disapproval of a competition plan and would establish 
hearing procedures for covered airports whose AIP entitlement funds are 
withheld based on a competition plan disapproval.

    Senator Shelby. Mr. Secretary, this will be my last 
question hopefully. This is in the transit area.

                        TRANSIT REAUTHORIZATION

    I must tell you that I am disappointed in what I am hearing 
about the transit reauthorization. I am especially interested 
in transit this year because, as you know, I chair the Banking 
Committee and I am involved with Senator Murray very much in 
transit on this committee. I would hope that you would take a 
fresh look, Mr. Secretary, at the transit program and propose 
modifications that would improve rural connectivity, improve 
project oversight, provide more tools and options for States, 
urban centers, and localities in dealing with their transit 
challenges, and to nudge the program toward providing 
comprehensive transportation solutions as opposed to transit 
band-aids.
    I would have thought that the budget constraints you faced 
in formulating your proposals would have pushed you at least in 
some of these directions. I am hearing that the only thing the 
Administration's proposal is likely to do is call for greater 
reliance on formula programs, and for program growth to come 
from innovative financing. That concerns me. What is innovative 
financing? Can you tell us what considerations you think are 
most important in improving the transit program?
    Secretary Mineta. First of all, this has been an interest 
of mine for quite awhile. As you will recall, when we had ISTEA 
we changed the name of UMTA, the Urban Mass Transit 
Administration to FTA, the Federal Transit Administration, in 
order to point out that transit is not only an urban matter but 
it is a rural issue as well. This has been an interest of mine, 
and this year in our 2004 submission we increase. For transit 
we increase that by 20 percent as it relates to rural areas. 
That includes the rural representation on MPOs as well in terms 
of how rural representation gets treated in the MPOs.
    So I think that what we are trying to do is to make sure 
that there is what you refer to as rural connectivity. This is 
something that the Administration is interested as well.
    Senator Shelby. Thank you. Senator Murray.

                       AIRLINE INDUSTRY SUBSIDIES

    Senator Murray. Thank you, Mr. Chairman. I just have one 
comment and one question. My comment is that I second what 
Senator Brownback was discussing with you in terms of the 
airline industry. We are deeply concerned about the impact of 
subsidies, and I hope that you pursue this with the Trade 
Secretary Representative, Ambassador Zoellick, and have a 
conversation with him about this because I think we are setting 
ourselves up for a very bad place if we do not seriously take a 
look at this. I look forward to working with you on that.

                            SOUTHERN BORDER

    Let me just ask you, because 2 years ago this subcommittee 
imposed a number of strict new safety requirements that had to 
be met before you could allow Mexican trucks into the United 
States. According to the IG, you have fulfilled every one of 
those safety requirements. But as soon as that took place, the 
Ninth Circuit Court of Appeals ruled that you could not open 
the border because the Administration never prepared the 
required environmental impact statement. Just a few weeks ago, 
you asked the Ninth Circuit to rehear that case. Your request 
was denied and you now appear to have a choice between 
appealing to the Supreme Court on this or going forward and 
preparing the environmental impact statement. I wondered which 
course you were going to take?
    Secretary Mineta. We have not decided that yet. We have 
until the 9th of July, I believe, in order to make a decision.
    Senator Murray. If the Supreme Court hears an appeal, it is 
likely that you will not get a decision well into 2004. Have 
you looked at the fact that it might be much more timely to go 
ahead and do the environmental impact statement?
    Secretary Mineta. I think we are looking right now at the 
time that it would take to complete the environmental impact 
statement (EIS) as compared to appealing. We have not come to a 
decision yet on which approach to take.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Shelby. We are joined by Senator Stevens, the 
chairman of the full committee. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. It is nice to see 
you, Mr. Secretary.
    Secretary Mineta. Good to see you, sir.

                            TRUCK MONITORING

    Senator Stevens. I am searching right now for the name of 
the program that was described to me yesterday that Alaska is 
not included in. It is a program whereby trucks are monitored 
throughout the southern 48 States that contain hazardous 
substances. I was just notified yesterday that the trucks that 
come up to Alaska through Canada and up the Alaska Highway into 
Alaska do not have that program. I am sorry, I just do not 
remember the name of it.
    I did not know that, and one of the reasons is, of course, 
our trucks pass through Canada and it is a satellite tracking 
program to make sure that we have absolute control over those 
trucks that contain hazardous materials. There are only a few 
of those trucks that come up to Alaska that are Department of 
Defense. Most of the Defense-oriented transportation comes by 
barge and goes up the Alaska railroad. But there are a 
considerable number of private concerns that do use that 
tracking system to bring these trucks into Alaska. I wanted to 
call it to your attention and urge your review of it because it 
is my understanding that the Defense Department is unwilling to 
spend money for this system to go to Alaska since they have 
such a small portion of coverage as far as hazardous materials 
coming to Alaska by truck; virtually none, as a matter of fact.
    Secretary Mineta. Senator, I will have to look into that 
matter and get back to you.

                     TRACKING OF HAZARDOUS MATERIAL

    Senator Stevens. I apologize. A senior moment here. I 
cannot remember the name of the program. But I do hope, Norm, 
you will look at it because we did not know--we have a 
considerable amount of hazardous material that comes into 
Alaska. It is a very tough thing to get it through Canada as a 
matter of fact. But I think if we provided this tracking system 
it might improve our relationship with our neighbor, but 
certainly it has something to do with rates for the people who 
have those trucks. If they do not have this coverage, the rates 
for insurance are much higher.
    So I am speaking really for the trucking industry from the 
State of Washington that primarily brings hazardous materials 
into our State. It is something that was just never called to 
our attention and I would like to find some way to cure it. 
They have asked us to add $4 million to your budget. That is 
what I am here for, to cover the cost of adding that satellite 
coverage for hazardous material tracking as it comes through 
Canada and through Alaska. I would appreciate it if you get the 
time----
    Secretary Mineta. I will look at it and get back to you, 
Mr. Chairman.
    [The information follows:]

    FMCSA has a $2.5 million on-going operational field test of 
vehicles with security technologies, including satellite tracking that 
involves 100 trucks from 8 trucking companies, 4 shippers, and 4 
consignees of hazardous materials in various segments of the hazardous 
materials industry. The goal of the project is to demonstrate the 
effectiveness of technologies in improving both safety and security, 
and to quantify the costs and benefits of implementing these 
technologies in the HAZMAT industry. In addition, FMCSA is about to 
commence a $2 million project to demonstrate satellite tracking of 
untethered trailers.
    Another related initiative is FMCSA's Supplemental Notice of 
Proposed Rulemaking to establish a Federal HM permit program for 
carriers of the most dangerous hazardous materials. As part of this 
proposed rulemaking, currently in Departmental review, FMCSA is 
considering a requirement for carriers of these materials have a system 
to communicate with the driver. We expect that satellite tracking and 
communications systems will be widely used to satisfy this requirement. 
In addition, the Research and Special Programs Administration (RSPA) is 
working on a Notice of Proposed Rulemaking that may require 
communication systems for larger numbers of hazardous materials 
shipments.
    DOT is undertaking demonstration projects to promote the safety, 
security, and efficiency benefits of satellite tracking systems for the 
trucking industry. We believe that through projects such as our two 
demonstration projects the industry will, on its own accord, begin to 
incorporate these technologies. The implementation of these systems 
will likely be further promoted as the Department finalizes security 
regulations for hazardous materials. As the untethered trailer tracking 
demonstration project is still in the planning phase, we will examine 
whether Alaska is an appropriate venue for this effort.

    Senator Stevens. I will find that name, Norm, and send it 
to you today. Thanks.
    Senator Shelby. Thank you, Senator Stevens.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, we appreciate your appearance today. We know 
we have asked some questions that you will answer for the 
record.
    Secretary Mineta. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard C. Shelby
         infrastructure and performance maintenance initiative
    Question. Has the Department identified any specific examples of 
the types of facilities that would be funded if the new 
``infrastructure performance and maintenance initiative'' were 
authorized? If so, could you provide those examples to the Committee?
    Answer. The intent of the Infrastructure Performance and 
Maintenance (IPAM) initiative is to focus the use of Federal funds on 
two types of Federal-aid highways projects: system preservation and the 
elimination of chokepoints. System preservation projects include a 
range of activities from preventative maintenance (e.g., cleaning and 
resealing of pavement joints or the restoration of rust resistant 
bridge paint) to minor reconstruction. During TEA-21, the States made 
good investments in system preservation, and the physical condition of 
highways and bridges has improved. The system preservation component of 
IPAM should help maintain this positive trend.
    The second category of eligibility under IPAM would be the 
elimination of traffic chokepoints. IPAM spending for congestion 
reduction would be targeted to traffic bottlenecks, not the widening of 
long stretches of highway. Likely projects would include intelligent 
transportation initiatives and the limited alteration of existing 
facilities. This would include improvements to interchange ramp, added 
auxiliary lanes, short sections of added through lanes and intersection 
modernization.
    In either case--system preservation or chokepoint elimination--the 
goal is to fund projects that are ready to go and that can be completed 
in a relatively short timeframe, providing timely improvements for the 
Nation's road users.
                       highway safety initiatives
    Question. The Department's budget appears to propose a safety 
program that is very different from the programs of the past. Knowing 
that both Click-It-or-Ticket mobilizations and impaired driving 
mobilizations have proven to be extremely successful the Department 
still chose to specifically exclude them from the budget request. What 
then is being proposed that will yield even better results?
    Answer. The National Highway Traffic Safety Administration (NHTSA) 
intends to continue the ``Click It or Ticket'' and ``You Drink & Drive. 
You Lose.'' mobilizations in 2004, and beyond. Early in calendar year 
2003, NHTSA solicited input from the Governors Highway Safety 
Association and the highway safety offices of the fifty States, the 
District of Columbia and Puerto Rico. Given the solid commitment to 
continuing the mobilizations that was expressed, NHTSA does not believe 
that it is necessary to earmark grant funds to the States for this 
purpose. States can use their Section 402 grants funds to support these 
efforts.
                         amtrak reform proposal
    Question. Mr. Secretary, as I mentioned in my opening statement, we 
are all eagerly awaiting an Amtrak Reform proposal. You talked about it 
last year, Michael Jackson has talked about it this year and we have 
yet to see a concrete proposal. When may we expect some type of formal 
legislative proposal for Amtrak reform?
    Answer. The Secretary of Transportation transmitted the 
Administration's intercity passenger rail legislative proposal--The 
Passenger Rail Investment Reform Act of 2003--to Congress on July 28, 
2003.
                             ship disposal
    Question. The Maritime Administration is tasked with the disposal 
of all obsolete vessels from the National Defense Reserve Fleet by 
September 30, 2006. There are more than 130 vessels presently in the 
fleet awaiting disposal, and MARAD has only disposed of 14 vessels over 
the past 3 years.
    I would like for you to keep me updated on how you plan to 
accomplish this task. This is a serious and expensive endeavor that 
really needs to be resolved.
    How does MARAD plan to dispose of these vessels by the statutory 
deadline? If additional vessels are accepted from the Navy and other 
sources, what strategies does MARAD have in place for the fleet to keep 
the program on schedule?
    Answer. As the Federal Government's ship disposal agent, MARAD 
acquires obsolete ships into its fleets on a continuous basis. 
Additional vessels to the 130 already in custody will significantly 
increase the disposal challenge faced by MARAD. MARAD's only disposal 
options from 1994-2000 were domestic ship sales and occasional ship 
donations, which resulted in 12 vessel sales for recycling and 5 vessel 
donations. Prior to 2001, MARAD did not have the authority to pay for 
dismantling services; thus, there was no ship disposal budget. The 
vessels that accumulated in the 1990's (the backlog) are now in poor 
condition, and account for approximately 75 of the 130 ships on hand. 
Disposal of the vessel backlog, while acquiring even more obsolete 
vessels, is a significant challenge.
    The deadline of September 30, 2006, established in the National 
Defense Authorization Act of 2001, will be difficult to reach because 
the Fleet is projected to receive 15 additional ships in each of the 
next 3 years. When this goal was established 2 years ago, there were 
115 vessels in the Fleet. Since then, 16 vessels have been removed; 
however, MARAD received an additional 31 obsolete ships during that 
period.
    The program priority remains focused on disposal of MARAD's 27 
high-risk, non-retention vessels (20 in the James River Reserve Fleet 
(JRRF), Virginia; 5 in the Suisun Bay Reserve Fleet, California; and 2 
in other locations--Mobile, Alabama, and Portsmouth, Virginia).
    MARAD anticipates removing a minimum of 25 vessels from the Fleet 
through domestic and export disposal recycling using the fiscal year 
2003 appropriation of $11.1 million, coupled with $20 million in 
funding from the Department of Defense. Proposals received thus far for 
the export of ships for recycling clearly indicate that export is the 
most cost-effective method because of higher demand for recyclable 
materials, lower labor costs, greater industrial capacity and greater 
competition. The ability to export ships for recycling will expedite 
the elimination of high-risk ships, significantly mitigate the 
environmental threat of oil discharge at the Fleet sites, and reduce 
the total number of obsolete vessels significantly.
    Ship disposal methods currently available, and the industry's 
response to MARAD's announcements, indicate that the cost-effectiveness 
of ship dismantling is based on economies of scale. The current 
contract with the United Kingdom involving the removal of 15 ships for 
$14 million is one example--the higher the number of ships, the greater 
the yield of steel and other recyclable materials. Many of the Program 
Research & Development Announcement (PRDA) proposals involving export 
contain costs to the Government that are significantly lower than 
current and anticipated costs for domestic dismantling. While the 
domestic dismantling industry has limited capacity, higher costs and 
limited competition, MARAD is currently in the process of awarding 
contracts to four domestic companies to recycle 10 ships. Ship 
dismantling/recycling is heavy industrial work--low tech and labor 
intensive. It involves the handling and disposition of hazardous 
materials, and thus has some inherent risks regardless of where the 
work is done. Although foreign facilities are not subject to worker and 
environmental laws as domestic facilities are, the foreign industry 
must demonstrate to MARAD and the EPA that they can accomplish 
responsible vessel recycling that protects worker safety and health.
    Other initiatives include:
    (a) National environmental best management practices (BMP) for 
preparing vessels for use as artificial reefs.--This is an interagency 
effort involving MARAD, the Environmental Protection Agency (EPA), 
Navy, United States Coast Guard, National Oceanic and Atmospheric 
Administration, Army Corps of Engineers, National Marine Fisheries, and 
other agencies, that MARAD initiated in 2002 with a projected 
completion in the spring of 2004. Establishing best practices will 
standardize the ship preparation guidelines on a nationwide basis, thus 
facilitating the application and vessel preparation processes, and 
aiding the States and MARAD in estimating the costs associated with 
ship preparation for artificial reefing.
    (b) Fuel removal for JRRF vessels.--MARAD continues to assess the 
risks associated with the removal of oil from obsolete ships prior to 
disposal. A PRDA was posted in fiscal year 2003; however, the proposals 
received did not offer any technologies, methodologies or innovations 
to make oil removal a cost-effective option. MARAD's policy has been 
that the safest and most cost-effective method of removing oil, and 
thus mitigating the risk of oil discharges from our obsolete ships, is 
to remove the oil during the ship dismantling process and not 
beforehand. MARAD continues to pursue opportunities to assess the 
feasibility and cost-effectiveness of oil removal technologies beyond 
traditional pumping methods. The goal is to identify cost-effective 
methods for the safe removal of some fuels, while the vessels are 
awaiting disposal. Heretofore, traditional oil pumping methods have not 
been cost-effective in removing significant quantities of oil to 
mitigate the threat of oil discharges into the environment.
    (c) Streamlining the artificial reefing application review and 
approval process.--The current application process required of coastal 
States to acquire vessels to be used as reefs, and the subsequent 
Federal agency review and approval process, is cumbersome and time 
consuming. MARAD, jointly with all the Federal agencies involved in the 
artificial reefing process, is working to streamline the process.
    (d) Discussions with the Mexican Government.--MARAD and EPA are 
exploring opportunities that mutually benefit Mexican vessel recycling 
facilities and MARAD, by providing a possible source of cost-effective 
and environmentally responsible vessel recycling.
    (e) Global Action Program (GAP).--MARAD has begun preliminary 
discussions related to partnering with interested Basel Convention 
countries, the International Maritime Organization, and the 
International Labor Organization in an international program to promote 
environmentally responsible and sustainable ship disposal.
    (f) Army Corp of Engineers (ACOE) and Louisiana barrier island 
stabilization using obsolete vessels.--MARAD has held preliminary 
discussions with the ACOE related to a potential pilot project and 
feasibility study to test the effectiveness of using obsolete vessels 
to stabilize the shorelines of barrier islands.
                       highway-related fatalities
    Question. The Department's goal for highway-related fatalities in 
2004 is 1.38 per 100 vehicle miles traveled. The budget seems to 
indicate that the two major reasons for the lack of significant 
progress in reducing overall highway-related fatalities can be directly 
attributed to motorcycles and pedestrians. What then is the Department 
doing to address and reduce the number of fatalities between these two 
groups? I ask because the budget appears to assume a steady rate among 
these groups and a necessity to focus on passenger cars and light 
trucks.
    Answer. NHTSA's fiscal year 2004 budget request addresses the 
action items in the NHTSA Motorcycle Safety Program document released 
in January 2003 and the National Agenda for Motorcycle Safety developed 
in collaboration with motorcycle safety partners.
    A new fiscal year 2004 initiative will address a concern that 
motorcycle training programs accommodate all those who seek training. 
NHTSA plans to work with identified State rider education and training 
programs to develop and implement long-range strategic plans to make 
training available for all those who need it and in a timely fashion. 
NHTSA will continue research on motorcycle lighting as a means to 
improve motorcyclist conspicuity and will continue research on 
motorcycle braking systems.
    Additionally, NHTSA will: conduct research on crash avoidance 
skills; conduct research on motorcyclists conspicuity; support projects 
to reduce impaired riding by developing and testing activities that may 
include peer-to-peer efforts, social norm models, enforcement efforts, 
and motorcycle impoundment; and collect and analyze motorcycle crash, 
injury, and fatality data and compare motorcyclists who successfully 
completed formal rider training to those who have not.
    Pedestrian crashes are addressed through a combination of public 
information, legislation, enforcement, engineering, and outreach 
strategies. NHTSA will: fund competitive demonstration projects 
designed to involve the law enforcement community to improve pedestrian 
safety; develop a community guide to tackle the challenges of 
implementing comprehensive pedestrian safety programs; explore the 
feasibility of developing and disseminating a school crossing guard 
curriculum; and develop community-level Safe Routes to School workshops 
to increase pedestrian safety around schools.
    NHTSA will also disseminate tools to encourage communities to 
promote safe walking. Non-traditional partners, such as smart growth 
coalitions or local government commissions, will be identified and 
encouraged to incorporate pedestrian safety into their organizations' 
missions. NHTSA will continue its partnership with the Federal Highway 
Administration to incorporate infrastructure improvements with 
behavioral safety principles.
           requirements for amtrak to receive federal subsidy
    Question. The Fiscal Year 2003 Appropriations Act placed a number 
of new requirements on Amtrak's ability to obtain their Federal 
subsidy. What, if any changes to those requirements would you propose 
to improve the Department's oversight of the railroad for the 2004 
bill?
    Answer. The Fiscal Year 2003 Appropriations Act's new requirements 
on grants to Amtrak are built upon reforms required by the Department 
as conditions to the fiscal year 2002 loan under the Railroad 
Rehabilitation and Improvement Financing (RRIF) program. These 
requirements have resulted in a significant improvement in the way 
Amtrak does business and should be continued. While additional reform 
is needed in the way intercity passenger rail service is provided in 
this country, such reforms should be part of comprehensive 
authorization legislation and are included in the legislation that the 
Secretary of Transportation transmitted to Congress.
                              patriot act
    Question. The Patriot Act requires a background check on all 
drivers transporting Hazardous Materials. When TSA was transferred to 
the Department of Homeland Security, the background investigative 
authority for the HAZMAT endorsement was also transferred as was the 
ability to grant that endorsement to CDL holders. However, the 
Department has requested money in the 2004 budget to continue to pay 
for these background checks. While I recognize that there is an 
outstanding contract between Motor Carriers and Lexis-Nexis to provide 
these services, I am concerned that this will be an ongoing request in 
future budgets. What is the Department doing to work with TSA to 
transfer this financial responsibility as well?
    Answer. The Fiscal Year 2004 President's Budget includes $3 million 
for FMCSA to implement Section 1012 of the Patriot Act. These funds 
would be obligated for the existing Lexis-Nexis contract. The 
Department has developed a memorandum of understanding between TSA and 
FMCSA, with FMCSA delegating day-to-day contractual administrative 
management responsibilities to TSA for the Lexis-Nexis contract. There 
will be no further financial responsibility for the Department beyond 
fiscal year 2004.
                    improving pavement ride quality
    Question. One of the Department's Strategic and Performance Goals 
is to increase the percent of pavement on the National Highway System 
with acceptable ride quality to 93.1 percent. Can you tell me how, with 
less highway funding, this budget proposes to reach this goal?
    Answer. The Department's performance goal for 2004 is to increase 
the percent of travel with acceptable ride quality on the National 
Highway System to 93.0. In addition to normal Federal-aid construction 
funds, the Department proposes to utilize research and technology funds 
to develop products and deliver technology that will improve pavement 
smoothness during initial construction and pavement ride quality over 
the life cycle of highways. Specific examples include improved pavement 
smoothness specifications, best practice guides for construction, 
improved pavement profile measurement equipment and profile analysis 
software.
    Additionally, specific initiatives will be focused on the 10 States 
where 76 percent of the travel on highways with unacceptable ride 
quality exists. The Department will initiate development and delivery 
of customized workshops focused on addressing specific needs in these 
States.
         highway performance and maintenance initiative (ipam)
    Question. The budget purposes a new, $1 billion highway performance 
and maintenance initiative which targets ``ready-to-go'' highway 
projects that address traffic bottlenecks and improve infrastructure 
conditions. How will the funds be distributed to the States? What 
specific guidance will be given for expenditures of the funds? Will 
States be allowed to reimburse themselves for already completed 
projects meeting the required criteria? In developing this new 
initiative were any specific projects identified that would meet the 
criteria? If so, could you provide a list of those projects and the 
characteristics that qualify them for the new initiative?
    Answer. The funds would be distributed by formula with 25 percent 
of the funds distributed based on each State's relative share of 
Federal-aid lane-miles, 40 percent based on each State's relative share 
of vehicle-miles of travel on Federal-aid highways and 35 percent based 
on each State's relative share of contributions to the Highway Account 
of the Highway Trust Fund. There would be a one-half percent minimum 
for each State. This formula is the same as is being used for the 
Surface Transportation Program.
    States would have 6 months to obligate their IPAM funds. This is 
consistent with the requirement that the funds be used for ready-to-go 
projects. After the 6-month deadline, un-obligated funds would be 
withdrawn from States and distributed to other States that could 
obligate the funds by the end of the fiscal year. We do not anticipate 
that States will find it difficult to comply with the 6-month 
timeframe.
    States would not be allowed to reimburse themselves for projects 
meeting the required criteria that are already completed or are already 
underway using the advance construction provisions of title 23. The 
intent of the IPAM program is to quickly initiate and deliver projects 
and their benefits to the public. Allowing the use of IPAM funds to 
reimburse already completed projects or projects that are already being 
advanced using other approaches would defeat this intent.
    Program guidance would also clarify eligible projects for IPAM 
funds by further defining the types of projects that would be eligible. 
The selection of projects to be carried under the IPAM program would be 
a State prerogative.
    The IPAM does not create new eligibilities for Federal-aid highway 
funds. The intent is to focus the use of Federal funds on two types of 
projects on Federal-aid highways, system preservation and the 
elimination of chokepoints. System preservation projects include a 
range of activities from preventative maintenance to minor 
reconstruction. During TEA-21, States made good investments in system 
preservation and the physical condition of highways and bridges has 
improved. The system preservation component of IPAM should help 
maintain this positive trend.
    The second category of eligibility under IPAM would be the 
elimination of traffic chokepoints. Reducing congestion is a great and 
costly challenge. IPAM spending for congestion reduction would be 
targeted to traffic bottlenecks, not the widening of long stretches of 
highway. Likely projects would include intelligent transportation 
initiatives and the limited alteration of existing facilities. This 
would include interchange ramp improvements, added auxiliary lanes, 
short sections of added through lanes and intersection modernization.
                            additional fte's
    Question. The budget requests 12 new FTE for the purposes of 
``enhancing the oversight of major projects; improvements to the 
security of our critical information systems; upgrades to our 
information technology infrastructure; and FHWA's share of the costs to 
consolidate all DOT modes located in Lakewood, Colorado, into one 
facility.'' Could you provide a breakdown of exactly how these new FTE 
will be utilized in each of the areas specified in the description? 
Provide a prioritization for each of these 12 FTE based upon need.
    Answer. The 12 FTE that are requested in fiscal year 2004 will be 
used specifically to enhance major projects oversight and fulfill 
FHWA's commitment of having a dedicated oversight project manager on 
each mega-project. All 12 FTE are considered equal and will be used as 
environmental commitments of the projects are entered into.
    FHWA will designate Mega-Project Oversight Managers who are 
personally accountable for proper Federal oversight and establish 
Integrated Product Teams to assist the oversight manager. The addition 
of the 12 FTE is essential for FHWA to perform its stewardship and 
oversight role. The responsibilities of each mega-project oversight 
manager include:
  --Representing FHWA before other Federal agencies, State 
        Transportation Agencies (STA), local agencies, consultants, and 
        contractors on all project delivery and oversight issues.
  --Briefing FHWA upper management, the Office of the Secretary of 
        Transportation, and the media on project status, and 
        significant project activities and issues.
  --Monitoring environmental commitments and ensuring that they are 
        incorporated into the plans and specifications.
  --Overseeing the review and approval of plans, specifications, and 
        estimates for appropriate application of design standards and 
        criteria, conformance with policies and regulations, traffic-
        safety features, reasonableness of estimated costs, and proper 
        specifications and other contract provisions.
  --Monitoring and reporting cost and schedule changes and updates, 
        analyzing project status for reasonableness and accuracy, and 
        managing changes to minimize impacts to costs and schedules.
  --Ensuring cost containment strategies such as value engineering, 
        constructability reviews, design-to-cost strategies, and up-
        front planning to minimize contractor risks are incorporated. 
        Coordinating with FHWA bridge engineers for design reviews of 
        major structures.
  --Ensuring FHWA laws and requirements for Federal-aid construction 
        contracts are incorporated, such as Buy America, Davis-Bacon 
        minimum wage rates, Disadvantaged Business Enterprise and 
        affirmative action requirements, records of materials and 
        supplies, etc.
  --Conducting project inspections to verify compliance with standard 
        engineering practice, and providing technical assistance.
  --Providing assistance and direction to the STA on the proper 
        application of Federal funds, designated funding, and 
        innovative financing programs.
  --Reviewing the Initial Finance Plan and Annual Updates, coordinating 
        with the STA and Headquarters Office, and ultimately accepting 
        the initial plan and updates.
  --Promoting technology transfer to and from the project.

                     FISCAL YEAR 2004 FTE REQUIREMENT FOR ACTIVE (AND FUTURE) MAJOR PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                                      Current       Fiscal Year
                    Projects                                  Status              Staffing Level       2004
----------------------------------------------------------------------------------------------------------------
I-80/San Francisco-Oakland Bay Bridge (East      Active.........................               1               1
 Span), CA.
SR 210/Foothill Freeway........................  Active.........................  ..............  ..............
I-25/I-225 Southeast Corridor, CO..............  Active.........................               1               1
New Haven Harbor Crossing, CT..................  Active.........................  ..............               1
Miami Intermodal Center, FL....................  Active.........................  ..............               1
I-4/I-275 Tampa Interstate, FL.................  Active.........................  ..............               1
New Mississippi River Bridge, IL-MO............  Active.........................  ..............               1
Central Artery/Ted Williams Tunnel, MA.........  Active.........................               5               3
Central Texas Turnpike, TX.....................  Active.........................               1               1
I-10/Katy Freeway, TX..........................  Active.........................  ..............               1
I-95/Woodrow Wilson Bridge, MD.................  Active.........................               2               2
I-95/I-495 Springfield Interchange, VA.........  Active.........................               1               1
I-64/Hampton Roads Third Crossing, VA..........  Active.........................  ..............               2
I-94/East-West Corridor, WI....................  Active.........................  ..............               1
New Ohio River Bridges, KY-IN..................  Future.........................  ..............               1
I-94/Edsel Ford Freeway, MI....................  Future.........................  ..............               1
Mon/Fayette Expressway, PA.....................  Future.........................  ..............               1
I-635/LBJ Freeway (West Section), TX...........  Future.........................  ..............               1
I-405 Corridor/SR 509 and I-5/SR520/Alaskan Way  Future.........................  ..............               2
 Viaduct, WA.
                                                ----------------------------------------------------------------
      Totals...................................  ...............................              11              23
----------------------------------------------------------------------------------------------------------------

                     intelligent vehicle initiative
    Question. The budget request discusses an example of an Intelligent 
Vehicle Initiative (IVI) to develop driver assistance systems that will 
reduce the number and severity of crashes and goes further to discuss 
systems currently under development to ``warn drivers of dangerous 
situations and recommend corrective actions, or in some cases, even 
assume partial control of vehicles to avoid collisions.'' Where is this 
research being conducted, who is participating and when do you 
anticipate the research will be completed? Additionally, is there a 
coordinated effort with the automobile manufacturers to develop and 
test these systems?
    Answer. The work under the IVI program is being conducted in a 
series of coordinated contracts and cooperative agreements with the 
Department of Transportation's (DOT) partners in the public and private 
sectors, as well as universities and other research institutions. DOT's 
partners were chosen because they are the critical organizations needed 
to develop and deploy effective systems. They include seven of the 
largest automobile manufactures (General Motors, Ford, Daimler-
Chrysler, Toyota, Nissan, BMW and Volkswagen), the largest technology 
suppliers to the U.S. automotive industry (Delphi Delco, Visteon, TRW 
and DENSO), heavy truck manufacturers (Freightliner, Mack, Volvo 
Trucks, and Navistar International), the State Departments of 
Transportation for California, Minnesota and Virginia, and finally 
several commercial and transit fleet operators.
    Under the IVI program, DOT is working on crash countermeasures that 
address the largest types of crashes (rear-end, road departure, 
intersection and lane change) and the factors that cause the crashes. 
The understanding of the crash problem and development of effective 
solutions varies in levels of maturity. Consequently, the IVI program 
is a long-term effort that is designed to produce incremental results. 
DOT's previous efforts already have led to the deployment of vision 
enhancement, adaptive cruise control and lane tracking systems. DOT's 
current activities are expected to support deployment of rear-end and 
road-departure collision-avoidance systems for passenger cars in the 
next 2 to 5 years. Intersection collisions are a more complicated 
problem that will require vehicle and infrastructure cooperative 
systems. Therefore, DOT does not expect these systems to be available 
for 8 to 10 years.
    The IVI program coordinates with automobile manufacturers at 
several levels. Overall strategic planning is coordinated through a 
Light Vehicle Industry Federal Advisory Committee Panel. DOT is working 
with a partnership of General Motors, Ford, Daimler-Chrysler, Toyota, 
Nissan, BMW and Volkswagen to study various enabling research issues. 
We are currently conducting studies with this partnership on driver 
workload, forward collision warning, enhanced digital maps and 
dedicated short-range communications (DSRC). DOT is also working 
directly with General Motors and Delphi-Delco on a Field Operational 
Test of Rear-end Collision Avoidance Systems for passenger cars. We 
also have a Field Operational Test for Road Departure Collision 
Avoidance Systems for Passenger cars with Visteon.
                   adoption of safety countermeasures
    Question. One of FHWA's anticipated accomplishments is a ``greater 
adoption and understanding by States of the safety benefits of 
countermeasures, including rumble strips and related roadside hardware, 
particularly on rural roads.'' What percentage of highway fatalities 
does FHWA attribute to hazardous roadway conditions? What specific 
programs will FHWA pursue with the States to promote these particular 
countermeasures? Will FHWA encourage States to utilize a majority of 
their safety funding for this purpose? If not, how will FHWA ensure 
greater adoption of countermeasures by the States?
    Answer. J.R. Treat's ``Indiana Tri-Level Study--A Study of Pre-
Crash Factors Involved in Traffic Accidents'' attributes 34 percent of 
highway crashes to the roadway as a cause or contributing factor. 
Treat's study is based on on-site reviews of actual highway crashes. 
The study recognizes that many crashes involve multiple factors related 
to the roadway, the driver and the vehicle. The percentages include 
crashes where there is more than one causal factor.
    FHWA pursues a number of programs to address infrastructure-related 
safety opportunities. One key area of focus is working with the 
American Association of State Highway and Transportation Officials 
(AASHTO) on the development and implementation of guidebooks which 
address areas of emphasis within the AASHTO Strategic Highway Safety 
Plan. Several of these areas of emphasis address roadway and roadside 
features, including newly-released guidebooks on run-off-road 
collisions, collisions in intersections without signals, head-on 
collisions, and collisions involving trees in hazardous locations.
    In addition to these partnering efforts with the AASHTO, FHWA 
issued a Technical Advisory on shoulder rumble strips last year to help 
States design and install them on rural National Highway System 
segments. The Mississippi Department of Transportation installed and 
tested different rumble strip designs combined with pavement marking 
overlays on rural roads. Initial evaluations indicate improved safety 
on rainy nights due to more visible pavement markings and audible 
rumble strip warnings. Also, FHWA reviews crash test data on new 
roadside hardware to verify its effectiveness and compliance with 
current crash test evaluation criteria. To provide States, local 
agencies and other interested parties information on which roadside 
hardware can be used safely, FHWA posts letters of acceptance for new 
hardware on its roadside safety website, http://safety.fhwa.dot.gov/
report350hardware. Since 1998, over 240 letters have been posted on 
guardrails, bridge rails, crash cushions, sign and light poles and work 
zone traffic devices.
    FHWA encourages States to use their safety funding for a variety of 
safety countermeasures based on a strategic approach to highway safety 
that identifies key problems and the most effective countermeasures. 
For example, studies on two-lane rural highways show that crash rates 
decline as shoulders are added or widened. Rumble strips may not be the 
most effective countermeasure on these narrow roads. Each State must 
identify and evaluate its particular safety needs to make the best use 
of its safety funding. FHWA is working with States to develop goals and 
performance measures to improve their safety performance. Accurate data 
on crash causation forms the basis of a strategic approach to highway 
safety that also encourages State adoption of effective 
countermeasures.
             state spending on hazard elimination projects
    Question. How much of current highway safety funding is utilized by 
States for hazard mitigation projects? Please provide a breakdown for 
each State for 2000, 2001 and 2002?
    Answer. The chart that follows shows the funds obligated by the 
States for hazard elimination projects during fiscal years 2000-2002.

----------------------------------------------------------------------------------------------------------------
                           State                            Fiscal Year 2000  Fiscal Year 2001  Fiscal Year 2002
----------------------------------------------------------------------------------------------------------------
Alabama...................................................       $597,579.25    $10,461,385.53     $1,385,519.46
Alaska....................................................        834,666.00        861,301.22        804,812.00
Arizona...................................................                 0      1,124,342.00      3,890,823.00
Arkansas..................................................      2,056,734.00        436,375.00         28,142.00
California................................................     11,250,001.87     17,940,935.96     16,401,450.91
Colorado..................................................      2,273,901.00      2,279,921.00      2,389,313.00
Connecticut...............................................      1,705,329.88      1,858,893.25      2,084,266.35
Delaware..................................................        828,325.00        414,768.35                 0
District of Columbia......................................                 0                 0                 0
Florida...................................................      3,349,934.00      3,516,589.00      5,050,791.00
Georgia...................................................      2,336,036.69      1,902,328.28        542,338.25
Hawaii....................................................        790,219.00        635,143.00                 0
Idaho.....................................................        140,692.00      1,145,248.00        451,065.25
Illinois..................................................      8,913,513.02     10,305,632.69      8,976,229.72
Indiana...................................................      3,518,335.67      2,229,913.41      1,127,612.56
Iowa......................................................        450,000.00      2,266,100.00      1,079,943.13
Kansas....................................................      1,808,724.51      5,146,482.47      3,187,743.50
Kentucky..................................................      1,936,379.04      1,845,245.72        719,869.66
Louisiana.................................................      1,239,652.00      1,187,013.71      3,901,352.15
Maine.....................................................      1,094,811.91        267,029.07        521,805.41
Maryland..................................................                 0      3,264,098.00      2,619,436.00
Massachusetts.............................................                 0                 0                 0
Michigan..................................................      8,279,378.92     10,087,363.35      8,781,312.87
Minnesota.................................................      3,282,132.09      1,962,307.15      5,321,754.92
Mississippi...............................................      4,018,145.00      2,072,571.00      1,981,001.00
Missouri..................................................      6,067,894.55      7,803,017.92      4,541,348.70
Montana...................................................      1,538,908.82      1,281,269.85      1,294,459.86
Nebraska..................................................        502,392.48      1,474,977.84      1,009,775.23
Nevada....................................................         65,112.40        276,392.79      2,175,028.65
New Hampshire.............................................        775,905.97        899,448.32        812,840.72
New Jersey................................................      5,030,912.00        143,842.00          4,117.00
New Mexico................................................                 0                 0                 0
New York..................................................     12,842,632.00      9,916,012.00      9,339,778.00
North Carolina............................................      4,530,423.00      4,714,589.00      7,392,083.00
North Dakota..............................................        896,162.06        620,700.44        476,702.67
Ohio......................................................      6,858,605.00      6,858,605.00      6,773,562.00
Oklahoma..................................................      2,540,771.10      2,320,514.07      1,193,435.63
Oregon....................................................      1,109,536.00      1,642,846.33      1,020,490.96
Pennsylvania..............................................      2,138,876.83      1,733,185.18      1,781,980.73
Rhode Island..............................................        859,495.64        196,365.90      1,339,574.70
South Carolina............................................      2,392,535.29      2,315,590.40      2,279,377.00
South Dakota..............................................      1,996,928.47        573,514.78      1,765,831.43
Tennessee.................................................      3,211,638.35      2,161,580.31      1,519,477.87
Texas.....................................................     17,222,270.82     13,680,765.93      9,754,310.11
Utah......................................................        -30,240.62         83,489.08        116,520.09
Vermont...................................................                 0                 0                 0
Virginia..................................................      1,561,569.00      1,804,992.00      3,412,329.92
Washington................................................      1,556,759.93        649,197.25      2,280,643.14
West Virginia.............................................                 0        713,917.00         41,097.00
Wisconsin.................................................      3,872,858.70        899,648.48      4,427,545.59
Wyoming...................................................        487,993.00      1,477,222.00      1,104,907.00
                                                           -----------------------------------------------------
      Total...............................................    138,734,431.64    147,452,671.03    137,103,799.14
----------------------------------------------------------------------------------------------------------------

                          intersection safety
    Question. Intersection safety due to cooperative efforts of FHWA, 
AASHTO, and ITE has been identified as another anticipated 
accomplishment. Will State and local governments also be involved in 
this cooperative effort? Could you provide specific examples as to how 
intersection safety will actually be accomplished in order to make 
intersections safer for pedestrians and bicyclists?
    Answer. State and local governments have been involved in the 
intersection safety effort from the beginning. State and local 
transportation and safety professionals played a major role in 
developing the National Intersection Safety Agenda that guides Federal, 
State and local efforts to improve intersection safety. Now they are 
actively involved in implementing the Agenda. For example, an 
intersection safety workshop for State and local professionals was 
developed with the active participation of State, local and private 
sector transportation and safety professionals.
    Another example of State participation in the intersection safety 
effort is the research study on the ``Safety Effectiveness of 
Intersection Left- and Right-Turn Lanes.'' Ten States--Iowa, Illinois, 
Louisiana, Minnesota, Montana, Nebraska, New Jersey, North Carolina, 
Oregon, and Virginia--and the District of Columbia provided research 
funds and participated in the study. Accurate estimates of the safety 
impacts of dedicated intersection turning lanes were developed over 6 
years. Rural left-turn lanes reduced crashes by 15 percent to 50 
percent. Urban left-turn lanes reduced crashes by 10 percent to 50 
percent. Crashes related to left turns are one of the common safety 
problems at intersections.
    FHWA is pursuing several strategies to make intersections safer for 
pedestrians and bicyclists. Local governments and Metropolitan Planning 
Organizations are participating in three FHWA demonstration projects to 
test and evaluate innovative countermeasures at intersections and to 
market the results to other State and local governments. Training for 
State and local engineers and planners in how to safely accommodate 
pedestrians and bicyclists at intersections is needed. FHWA will work 
with its safety partners to develop and promote workshops, conferences 
and meetings as well as training materials. To educate young engineers, 
teaching materials will be developed for university professors so they 
can incorporate pedestrian and bicycle safety into their intersection 
design and planning curriculum for undergraduate and graduate students. 
FHWA is developing more partnerships with State and local governments, 
academia, and private sector organizations to accelerate the 
development of expert tools to identify pedestrian and bicyclist safety 
problems and potential solutions.
            pedestrian and bicyclist safety at intersections
    Question. The budget states that ``more consideration will be given 
to the safety of motorists, pedestrians, bicyclists, workers and those 
persons with disabilities in the planning, design and use of 
transportation facilities; and roadway users will have a better 
awareness of pedestrians and bicyclists.'' Does ``consideration'' also 
mean that proactive steps will be taken to actually improve the safety 
conditions? If so, what steps will be taken and/or what steps are 
planned? How will roadway users gain a greater awareness of pedestrians 
and bicyclists?
    Answer. FHWA has taken specific steps to improve the safety of all 
roadway users including vulnerable populations such as older drivers 
and pedestrians. FHWA has been proactive in researching older road 
users' needs and capabilities and identifying highway changes that can 
improve their safety in using the transportation system. FHWA developed 
the ``Highway Design Handbook for Older Drivers and Pedestrians'' with 
guidelines that identify design, operational and traffic engineering 
enhancements to roadway features that pose safety risks for older road 
users, such as intersections. These recommendations make our roads 
safer and easier to use for older drivers and pedestrians and all 
roadway users. To accelerate implementation of the guidelines, FHWA 
developed a workshop for Federal, State and local practitioners to 
communicate the results of its research on older road users and the 
safety benefits of the older driver and pedestrian guidelines. Four 
hundred and forty-seven practitioners have attended workshops in 39 
States. A survey of the participants indicates that 54 percent of the 
respondents have designed or changed their facilities to accommodate 
older road users.
    To increase road user awareness of pedestrian and bicyclist safety 
needs, FHWA is marketing pedestrian and bicyclist safety awareness 
products to State and local governments and private sector safety 
organizations. Interactive tools such as ``Safer Journey'' increase 
road user knowledge of pedestrian and bicyclist safety problems and 
solutions. Seven States have decided to provide copies of the ``Safer 
Journey'' CD to all of their elementary schools to increase awareness 
of pedestrian and bicyclist safety. English and Spanish pedestrian 
safety materials for television, radio, and print media are being 
developed as part of a national campaign to raise awareness. FHWA is 
developing pedestrian safety materials targeted to specific populations 
including Hispanics and Native Americans. FHWA is also expanding its 
partnerships with State and local agencies and private sector safety 
organizations to accelerate the marketing and distribution of these 
pedestrian and safety materials.
                  state strategic highway safety plans
    Question. FHWA plans to encourage State departments of 
transportation to adopt a strategic highway safety plan and a 
comprehensive safety planning process. As part of this process, will 
FHWA also encourage States to allow Metropolitan Planning Organizations 
to participate and integrate them as part of their overall budget? Are 
there any States that currently have either a highway safety plan or a 
comprehensive safety planning process? If so, could you please provide 
a list of those?
    Answer. The collaborative process for developing a strategic 
highway safety plan requires States to include major State and local 
stakeholders. As major stakeholders at the local level, Metropolitan 
Planning Organizations would be expected to participate in the process. 
State and local agencies and organizations participating the process 
are required to share information and assist in the analysis of safety 
data to produce a strategic highway safety plan. The development of the 
plan would not require changes in the planning processes, plans or 
programs of other State or local agencies. An informal survey indicates 
that at least 20 States and the District of Columbia have some sort of 
a comprehensive safety plan. The 20 States are California, Colorado, 
Florida, Illinois, Kentucky, Louisiana, Maryland, Michigan, Maine, 
Mississippi, North Carolina, Nebraska, New Jersey, New York, Oregon, 
Pennsylvania, Texas, Utah, Washington, and Wyoming.
                         congestion mitigation
    Question. FHWA has stated its capability to identify and mitigate 
causes of highway congestion. However, the portion of travel that 
occurred under congested conditions has increased each year. The short-
term goal appears to be slowing the annual rate of increase to 32.3 
percent in fiscal year 2004. What specific actions will FHWA take in 
2003 to achieve this goal?
    Answer. FHWA knows from surveys that traffic congestion, 
particularly that associated with unexpected and non-recurring events 
such as work zones and incidents, is aggravating Americans. And the 
agency knows from these surveys what matters most to highway users is 
the reliability of the system. FHWA has designated congestion 
mitigation as one of its ``vital few'' goal areas. Traffic congestion 
is influenced by a number of factors outside the influence of the 
transportation sector, such as population increases and land use 
decisions, but there are a number of areas where FHWA can make a 
significant difference in terms of mitigating traffic congestion 
levels. Solutions to traffic congestion include building additional 
highway capacity (new facilities, added lanes, removing bottlenecks, 
etc.), better managing peak demands, and squeezing the highest level of 
performance out of existing capacity by effectively managing the 
highway system in a customer-focused, performance-based, proactive, 
real-time manner. While FHWA has a number of initiatives underway that 
focus on this last concept, the following five likely will have the 
greatest long-term impact:
    1. To date FHWA has not had a means of measuring how well the 
operation of the highway system is being managed. In the last 2 years, 
FHWA has developed and tested a system reliability index in 21 cities 
that it calls the ``buffer index'' (the amount of time added to your 
trip because of system unreliability). FHWA hopes that this measure 
eventually becomes as well known as (say) the temperature humidity 
index and helps cities gauge how well they are doing in responding to 
incidents, managing their work zones, and responding to the negative 
effects of adverse weather. FHWA will repeat the measurement in up to 
10 additional cities both this year and in fiscal year 2004, while it 
continues to build support for use of reliability and other appropriate 
performance measures in system monitoring and decision-making.
    2. FHWA will continue a major program focus on reducing delays 
caused by work zones by emphasizing the concept of ``getting in, 
getting out and staying out.'' Current and fiscal year 2004 program 
activities will be focused on consideration of work zone impacts in the 
planning process, innovative design and construction techniques, 
traffic control planning, and use of performance measures.
    3. FHWA will continue to build the foundation of a national traffic 
incident management organization, and develop and share detailed 
information, technical guidance and training on procedures to develop 
effective incident management programs and effectively respond to 
traffic incidents. The overall focus of these efforts is to reduce the 
time required to detect, respond to, and clear traffic incidents, which 
should result in a significant improvement in the congestion that they 
cause.
    4. Half the battle of mitigating the real and perceived impacts of 
traffic congestion on system users is giving people accurate and 
complete information. FHWA is in the process of helping to facilitate 
deployment of the 511 national travel information telephone numbers in 
cities and States across the United States. Currently about 14 percent 
of the U.S. population has access to high quality 511 services, with 
access expected to increase to about 25 percent by the end of 2003. 
FHWA's fiscal year 2004 goal is to reach 35 percent of the U.S. 
population.
    5. Finally, it is difficult to effectively manage the 
transportation system to mitigate traffic congestion in a culture that 
is still very much focused on developing and delivering construction 
projects. FHWA is continuing a significant program focus begun in 
fiscal year 2002 that seeks to encourage and incentivize regional 
collaboration and coordination among transportation system operators 
and public safety agencies at all levels of government. Use of the 
techniques developed in this program area will result in more extensive 
and more effective implementation of regional operations strategies 
such as regional traffic incident management programs, regional 
traveler information services, inter-jurisdictional coordination of 
traffic signals and regional emergency planning and response.
           border planning, operation and technology program
    Question. The Border Planning, Operations and Technology (BPOT) 
program funds can be used for multimodal planning that results in 
improvements in freight movement and highway access to rail, marine and 
air services. Can this money be used for actual multimodal improvements 
or simply multimodal planning?
    Answer. The BPOT funds can be used for an improvement at or near a 
land border with Canada or Mexico if the improvement is needed for 
operational enhancements or technology applications.
               areas currently eligible for cmaq funding
    Question. Please identify the areas currently eligible for CMAQ 
funding.
    Answer. CMAQ funding must be used within non-attainment and 
maintenance areas if any exist within the State. If a State has no non-
attainment or maintenance areas, it may use its CMAQ apportionment 
anywhere in the State on projects eligible under either the CMAQ or the 
Surface Transportation Programs.

 FISCAL YEAR 2003 CMAQ-ELIGIBLE NON-ATTAINMENT MAINTENANCE AREAS--STATE
                               AND COUNTY
------------------------------------------------------------------------
 STATE--Nonattainment/Maintenance Area       COUNTY--Nonattainment/
                 Name                         Maintenance Area Name
------------------------------------------------------------------------
ALABAMA: Birmingham...................  Jefferson, Shelby
ALASKA:
    Anchorage.........................  Anchorage
    Fairbanks.........................  Fairbanks
ARIZONA: Phoenix......................  Maricopa
ARKANSAS..............................  Anywhere
CALIFORNIA:
    Chico-Paradise....................  Butte
    Los Angeles.......................  South Coast Air Basin, Los
                                         Angeles, Orange, Riverside, San
                                         Bernadino
    Sacramento Metro..................  El Dorado, Placer, Solano,
                                         Sutter, Sacramento, Yolo
    San Diego.........................  San Diego
    San Joaquin Valley................  Fresno, Kern, Kings, Madera,
                                         Merced, San Joaquin Valley,
                                         Stanislaus, Tulare
    Santa Barbara-Santa Maria-Lompoc..  Santa Barbara
    Ventura Co........................  Ventura
    Monterey Bay......................  Monterey, San Benito, Santa Cruz
    San Francisco Bay Area............  Alameda, Contra Costa, Marin,
                                         Napa, San Francisco, San Mateo,
                                         Santa Clara, Sonoma
COLORADO:
    Colorado Springs..................  El Paso, Teller
    Denver-Boulder-Greeley............  Adams, Arapahoe, Boulder,
                                         Denver, Douglas, Jefferson
    Fort Collins......................  Larimer
    Longmont..........................  Weld
CONNECTICUT:
    Greater Connecticut...............  Hartford, Middlesex, New Haven,
                                         New London, Tolland, Windham
    New York-New Jersey-Long Island...  Fairfield, Litchfield
DELAWARE:
    Philadelphia-Wilmington-Atlantic    Kent, New Castle
     City.
    Sussex............................  Sussex
DISTRICT OF COLUMBIA: Washington, DC-   DC
 MD-VA.
FLORIDA:
    Miami-Ft Lauderdale-W. Palm Beach.  Broward, Miami Dade, Palm Beach
    Tampa-St. Petersburg-Clearwater...  Hillsborough, Pinellas
GEORGIA: Atlanta......................  Cherokee, Clayton, Cobb, Coweta,
                                         DeKalb, Douglas, Fayette,
                                         Forsyth, Fulton, Gwinnett,
                                         Henry, Paulding, Rockdale
HAWAII................................  Anywhere
IDAHO.................................  Anywhere
ILLINOIS:
    Chicago-Gary-Lake County..........  Cook, DuPage, Grundy, Kane,
                                         Kendall, Lake, McHenry, Will
    St. Louis, MO.....................  Madison, Monroe, St. Clair
    Jersey Co.........................  Jersey Co
INDIANA:
    Chicago-Gary-Lake County..........  Lake, Porter
    Evansville........................  Vanderburgh
    Louisville, KY-IN.................  Clark, Floyd
    Indianapolis......................  Marion
    South Bend-Elkhart................  Elkhart, St. Joseph
IOWA..................................  Anywhere
KANSAS: Kansas City KS-MO.............  Johnson, Wyandotte
KENTUCKY:
    Cincinnati-Hamilton...............  Boone, Campbell, Kenton
    Edmonson..........................  Edmonson
    Louisville, KY-IN.................  Bullitt, Jefferson, Oldham
    Huntington-Ashland................  Boyd, Greenup
    Lexington-Fayette.................  Fayette, Scott
    Owensboro.........................  Daviess, Hancock
    Paducah...........................  Livingston, Marshall
LOUISANA:
    Baton Rouge.......................  Ascension, E. Baton Rouge,
                                         Iberville, Livingston, W. Baton
                                         Rouge
    Lake Charles......................  Calcasieu
    Point Coupee......................  Point Coupee
MAINE:
    Hancock & Waldo...................  Hancock, Waldo
    Knox & Lincoln....................  Knox, Lincoln
    Lewiston & Auburn.................  Androscoggin, Kennebec
    Portland..........................  Cumberland, Sagadahoc, York
MARYLAND:
    Baltimore.........................  Anne Arundel, Baltimore County,
                                         Baltimore City, Carroll,
                                         Harford, Howard
    Kent-Queen Anne's.................  Kent, Queen Anne's
    Philadelphia-Washington-Trenton,    Cecil
     PA-NJ-DE-MD.
    Washington, DC-MD-VA..............  Calvert, Charles, Frederick,
                                         Montgomery, Prince George's
MASSACHUSETTS:
    Boston-Lawrence-Worcester.........  Barnstable, Bristol, Dukes,
                                         Essex, Middlesex, Nantucket,
                                         Norfolk, Plymouth, Suffolk,
                                         Worcester
    Springfield (Western MA)..........  Berkshire, Franklin, Hampden,
                                         Hampshire
MICHIGAN:
    Detroit-Ann Arbor.................  Livingston, Macomb, Monroe,
                                         Oakland, St. Clair, Washtenaw,
                                         Wayne
    Grand Rapids......................  Kent, Ottawa
    Muskegon..........................  Muskegon
MINNESOTA:
    Minneapolis-St. Paul..............  Anoka, Carver
    Dakota............................  Hennepin, Ramsey, Scott,
                                         Washington, Wright
    Duluth............................  St. Louis
MISSISSIPPI...........................  Anywhere
MISSOURI:
    St Louis..........................  Franklin, Jefferson, St.
                                         Charles, St. Louis City, St.
                                         Louis County
    Kansas City.......................  Clay, Jackson, Platte
MONTANA: Missoula.....................  Missoula
NEBRASKA..............................  Anywhere
NEVADA:
    Reno..............................  Washoe
    Las Vegas.........................  Clark
NEW HAMPSHIRE:
    Boston-Lawrence-Worcester, NH-MA..  Hillsborough, Rockingham
    Manchester........................  Merrimack
    Portsmouth-Dover-Rochester........  Strafford
NEW JERSEY:
    Allentown-Bethlehem-Easton........  Warren
    Atlantic City.....................  Atlantic
    New York-New Jersey-Long Island...  Bergen, Essex, Hudson,
                                         Hunterdon, Middlesex, Monmouth,
                                         Morris, Ocean, Passaic,
                                         Somerset, Sussex, Union
    Philadelphia-Wilmington-Trenton...  Burlington, Camden, Cumberland,
                                         Gloucester, Mercer, Salem
NEW MEXICO:
    Sunland Park......................  Dona Ana
    Albuquerque.......................  Bernalillo
NEW YORK:
    Albany-Schenectady-Troy...........  Albany, Greene, Montgomery,
                                         Rensselaer, Saratoga,
                                         Schenectady
    Buffalo-Niagara Falls.............  Erie, Niagara
    Essex.............................  Essex
    Jefferson.........................  Jefferson
    New York-New Jersey-Long Island...  Bronx, Kings, Nassau, New York,
                                         Orange, Queens, Richmond,
                                         Rockland, Suffolk, Westchester
    Poughkeepsie......................  Dutchess, Putnam
    Syracuse..........................  Onondaga
NORTH CAROLINA:
    Charlotte-Gastonia................  Gaston, Mecklenburg
    Greensboro-Winston-Salem-High       Davidson, Davie, Forsyth,
     Point.                              Guilford
    Raleigh-Durham....................  Durham, Granville, Wake
NORTH DAKOTA..........................  Anywhere
OHIO:
    Cincinnati-Hamilton...............  Butler, Clermont, Hamilton,
                                         Warren
    Canton-Masillon...................  Stark
    Cleveland-Akron-Lorain............  Ashtabula, Cuyahoga, Geauga,
                                         Lake, Lorain, Medina, Portage,
                                         Summit, Columbus, Delaware,
                                         Franklin, Licking
    Dayton-Springfield................  Clark, Greene, Miami, Montgomery
    Toledo............................  Lucas, Wood
    Youngstown-Warren-Sharon..........  Mahoning, Trumbull
OKLAHOMA..............................  Anywhere
OREGON:
    Portland-Vancouver-Salem..........  Clackamas, Multnomah, Washington
    Grants Pass.......................  Josephine
    Kalmath Falls.....................  Kalmath
    Medford...........................  Jackson
PENNSYLVANIA:
    Allentown-Bethlehem-Easton........  Carbon, Lehigh, Northampton
    Altoona...........................  Blair
    Erie..............................  Erie
    Johnstown.........................  Cambria, Somerset
    Harrisburg-Lebanon-Carlisle.......  Cumberland, Dauphin, Lebanon,
                                         Perry
    Lancaster.........................  Lancaster
    Philadelphia-Wilmington-Atlantic    Bucks, Chester, Delaware,
     City PA-DE-NJ-MD.                   Montgomery, Philadelphia
    Pittsburgh-Beaver Valley..........  Allegheny, Armstrong, Beaver,
                                         Fayette, Washington,
                                         Westmoreland
    Reading...........................  Berks
    Scranton-Wilkes-Barre.............  Columbia, Lackawanna, Luzerne,
                                         Monroe, Wyoming
    York..............................  Adams, York
    Youngstown-Warren-Sharon..........  Mercer
RHODE ISLAND: Providence (All RI).....  Bristol, Kent, Newport,
                                         Providence, Washington
SOUTH CAROLINA........................  Cherokee
SOUTH DAKOTA..........................  Anywhere
TENNESSEE:
    Knoxville.........................  Knox
    Memphis...........................  Shelby
    Nashville.........................  Davidson, Rutherford, Sumner,
                                         Williamson, Wilson
TEXAS:
    Beaumont-Port Arthur..............  Hardin, Jefferson, Orange
    Dallas-Fort Worth.................  Collin, Dallas, Denton, Tarrant
    El Paso, TX.......................  El Paso
    Houston-Galveston-Brazoria........  Brazoria, Chambers, Fort Bend,
                                         Galveston, Harris, Liberty,
                                         Montgomery, Waller
UTAH:
    Salt Lake City-Ogden..............  Davis, Salt Lake
    Ogden.............................  Weber
    Provo-Orem........................  Utah
VERMONT...............................  Anywhere
VIRGINIA:
    Norfolk-Virginia Beach-Newport      Chesapeake City, Hampton City,
     News.                               James City County, New Port
                                         News City, Poquoson, Suffolk
                                         City, Williamsburg City, York
    Richmond..........................  Charles City Co., Chesterfield,
                                         Colonial Heights City, Hanover,
                                         Henrico, Hopewell City,
                                         Richmond City
    Baltimore-Washington, DC-MD-VA-WV.  Alexandra City, Arlington,
                                         Fairfax, Fairfax City, Falls
                                         Church City, Loudoun, Manassas
                                         City, Manassas Park City,
                                         Prince William, Stafford
    Smyth.............................  Smyth
WASHINGTON:
    Portland-Salem....................  Clark
    Seattle-Tacoma....................  King, Pierce, Snohomish
    Spokane...........................  Spokane
WEST VIRGINIA:
    Charleston........................  Kanawha, Putnam
    Greenbrier........................  Greenbrier
    Huntington-Ashland................  Cabell, Wayne
    Parkersburg-Marietta, WV-OH.......  Wood
WISCONSIN:
    Green Bay-Appleton................  Door
    Manitowoc.........................  Manitowoc
    Milwaukee-Racine..................  Kenosha, Milwaukee, Ozaukee,
                                         Racine, Washington, Waukesha
    Kewaunee..........................  Kewaunee
    Sheboygan.........................  Sheboygan
    Walworth..........................  Walworth
WYOMING...............................  Anywhere
------------------------------------------------------------------------

             ecosystem and habitat conservation initiatives
    Question. The budget states an intention to increase the number of 
exemplary ecosystem and habitat conservation initiatives from 8 to 10 
in fiscal year 2004 with the long-term goal of 30 initiatives in at 
least 20 States or Federal Lands divisions by fiscal year 2007. Could 
you identify the 8 existing initiatives where FHWA plans to implement 
the additional two in fiscal year 2004 and what, if any, new 
initiatives will be attempted?
    Answer. There are currently five initiatives that have been 
designated to-date. These five initiatives are:
Colorado Department of Transportation's Shortgrass Prairie Initiative
    The Colorado Department of Transportation's (CDOT) Shortgrass 
Prairie Initiative is a programmatic consultation and proactive 
avoidance, minimization, and mitigation effort covering 36 listed and 
non-listed species and associated habitats that could be impacted by 
CDOT's maintenance and construction activities on Colorado's prairie 
over the next 20 years.
Montana Department of Transportation's US 93 Agreement
    The new highway was designed with the idea that the road is a 
visitor and should respond to and be respectful of the land and Spirit 
of Place. Montana DOT, FHWA, and the Confederated Salish-Kootenai 
Tribes reached a shared vision of the road's interaction with the 
environment and Tribal culture.
North Carolina's Ecosystem Enhancement Program
    In order to deal with a rapidly expanding transportation program 
that will impact an estimated 6,000 acres of wetlands and a million 
feet of streams over the next 7 years, the North Carolina Department of 
Transportation, the United States Army Corps of Engineers, and the 
North Carolina Department of Environment and Natural Resources are 
designing an Ecosystem Enhancement Program to protect the State's 
natural resources.
Oregon DOT's Fish Friendly Maintenance Practices
    The Oregon DOT has developed a Geographic Information System-based 
sensitive resource inventory along nearly 6,000 miles of State highway 
as part of its Salmon Resources and Sensitive Area Mapping Project. The 
primary purpose of the project is to provide accurate resource 
protection maps to roadway maintenance crews so that mowing, pesticide 
application, and other activities do not harm listed salmon species and 
other sensitive resources.
Washington DOT's Watershed Approach to Mitigation Setting
    This watershed approach is a community based environmental decision 
making process that uses watersheds as functional systems, coordinating 
and integrating human activities to implement watershed recovery 
efforts and to prevent further degradation of natural resources within 
the watershed basin. A key component of the Washington DOT's watershed 
approach is the targeting of mitigation funds to sites offering 
greatest ecological benefits.
    Detailed information on these five initial initiatives (established 
in fiscal year 2002) is available on the FHWA website at: http://
www.fhwa.dot.gov/environment/strmlng/bestprac.htm.
    Three additional initiatives are being examined and will be 
implemented by the close of fiscal year 2003. These initiatives 
include:
Nevada--Regional Wetland Bank
    Constructed by the Nevada DOT, this project is on public land, 
within sight of a major highway, has public hunting, wildlife viewing 
platforms, long-term monitoring, extensive irrigation rights and 
control structures and support from agencies. It has been very 
successful over a 6-10 year period. It was built as a regional bank for 
projects between Reno and Gardnerville.
Arizona--State Route 260 Wildlife Measures
    This project in Arizona involves area-wide habitat connectivity 
monitoring and measures for wildlife passage. The project is just below 
the Mogollon Rim. This area has one of the highest wildlife-vehicle 
(primarily elk) collision rates in the State. The Arizona DOT is in the 
process of building 17 sets of bridges along 17 miles of highway to 
allow wildlife permeability underneath the highway based on extensive 
habitat studies interagency coordination. The Arizona Game and Fish 
Department has been given the task of monitoring the effectiveness of 
these structures. Monitoring will compare the differences in bridge 
design based on the number of animals and how readily they use them.
New Hampshire--Route 101 Mitigation Program
    The mitigation plan was developed for the New Hampshire DOT project 
to improve 17.6 miles of NH Route 101 from Epping to Hampton. This is a 
multi-faceted program with measures to minimize impacts to existing 
wetland resources, restore estuarine marsh, protect upland habitat, 
maintain water quality, preserve and study historic and archeological 
sites, minimize highway noise and create replacement wetlands.
    FHWA has identified several additional initiatives as possibilities 
for 2004 and beyond:
  --Iowa--the State DOT's living roadside and prairie restoration 
        program;
  --California--several land-use/transportation/conservation planning 
        initiatives;
  --Alaska--highway culvert replacement program to improve fish 
        passage;
  --Arizona--Desert bighorn habitat study and conservation plan 
        relative to the US 93 upgrade.
                      context sensitive solutions
    Question. In 2004, the budget proposes to establish a baseline of 
best practices for integrated planning and encourage 11 States to adopt 
context sensitive solutions (CSS). Have those 11 States been identified 
and what will their participation require?
    Answer. FHWA is advocating the advancement of context sensitive 
solutions (CSS) and integrated approaches to the planning and 
environmental process as part of its Environmental Vital Few Goal. As a 
baseline for CSS, FHWA selected the five States (Connecticut, Kentucky, 
Maryland, Minnesota, and Utah) that were selected in 1998 as Context 
Sensitive Design (CSD)/CSS pilot States.
    FHWA is currently finalizing the criteria that will be used to 
identify additional States that have adopted CSS. The criteria under 
consideration include the following:
  --Some projects are being implemented using a CSS approach, tools, 
        and methodologies.
  --Technical staff is trained in a CSS approach, both in field and 
        central offices, and across disciplines (planning, environment, 
        design, right-of-way, operations, and maintenance).
  --Interdisciplinary teams are involved in the process from the 
        beginning to the end.
  --There is early, continuing, and interactive public involvement 
        throughout the project development process.
  --There is a written commitment or policy.
    Following finalization of the criteria, FHWA anticipates 
identifying a minimum of three additional CSS States by the close of 
fiscal year 2003. The fiscal year 2004 target for CSS is to increase 
the total number of CSS States to 11, although FHWA has not yet 
identified the additional States that will allow the agency to reach 
its fiscal year 2004 target.
                       strategic highway network
    Question. The budget requests $4.6 million to coordinate military 
and civilian traffic needs in emergencies focusing on the Strategic 
Highway Network. Please provide an accounting of exactly how FHWA plans 
to spend this $4.6 million.
    Answer. The $4.6 million requested is to support security 
activities that are much broader than just the Strategic Highway 
Network (STRAHNET). The STRAHNET system (a portion of the National 
Highway System) supports military deployment and is in good structural 
and operational condition.
    DOT works with the Department of Defense (DOD) to improve 
mobilization effectiveness, and to help State and local transportation 
agencies safely and securely sustain vital traffic flows. Approximately 
$2.3 million of the funds will be used to support and improve military 
deployment including: (1) workshops with civilian and military 
authorities at the major deployment ``forts''; (2) development and 
distribution of a best practices guide for support of military 
deployment; (3) specific reviews of one or more of the ``fort-to-port'' 
routes at the major military platforms; and (4) coordination with DOD 
to facilitate rapid mobilization over the highway network and to 
minimize disruption to traffic during the mobilization.
    The remaining $2.3 million will be used for a broad array of 
security initiatives, the more significant of which include: (1) 
coordination with highway industry partners to implement the 
Transportation Security Administration's (TSA) proposed security 
standards regarding protection of critical infrastructure; (2) 
transportation-focused emergency response preparedness activities for 
natural disasters, accidental incidents involving hazardous materials, 
and intentional acts in metropolitan areas designated by the Department 
of Homeland Security (DHS) as being at greatest risk; and (3) internal 
agency initiatives to ensure continuity of operations preparedness for 
emergencies. The emergency response activities are fully coordinated 
with DHS units including FEMA, TSA, etc., the National Academy of 
Sciences, and the American Association of State Highway and 
Transportation Officials (AASHTO).
                        mega projects oversight
    Question. The Department has identified and initiated steps to 
improve oversight of mega projects by developing a comprehensive, 
standard approach. What is the new comprehensive, standard approach 
that will be applied to all mega projects? How is it different than 
previous oversight requirements, and how does the Department envision 
that this new approach will improve mega project planning and 
construction?
    Answer. Beginning in May 2000, FHWA issued its Financial Plan 
Guidance defining the content and format of the Financial Plans as 
required by Section 1305 of TEA-21, for all highway projects with an 
estimated total cost of $1.0 billion or more. The Financial Plan 
provides a comprehensive document reflecting the total cost of the 
project, and provides reasonable assurances that there will be 
sufficient financial resources to complete the project as planned. Cost 
containment strategies are also identified in the Financial Plans, as 
well as an implementation schedule for completing the project. Annual 
updates are required to track significant cost and schedule deviations 
from the initial Financial Plan, and mitigative actions taken to adjust 
for those deviations. A provision in the SAFETEA reauthorization 
proposal would make Financial Plans a requirement for all highway 
projects receiving $100 million or more in Federal-aid funds.
    As a standard operating procedure, major (mega) projects produce 
periodic (usually monthly) cost, schedule, and status reports; and 
periodic status meetings are held with the State Transportation 
Agency's project management team, FHWA, and other involved agencies in 
attendance. The periodic status meetings discuss project costs, 
schedules, quality issues, and other status items in sufficient enough 
detail to allow involved parties to be aware of significant issues and 
actions planned to mitigate any adverse impacts.
    FHWA is committed to assigning a designated Oversight Manager to 
each active major project, dedicated full-time to that specific major 
project. The Oversight Manager may draw upon resources from within his/
her Division Office, in order to form an integrated project team that 
is responsible for providing proper Federal stewardship and oversight 
of the major project. Core competencies and training resources have 
been established for the major project Oversight Managers. A web-based 
resource manual has also been completed in order to provide guidance, 
tools, and best practices to assist the Oversight Managers in 
effectively carrying out their duties.
    An active major projects monthly status reporting system has been 
implemented in conjunction with the Department's Office of Inspector 
General (OIG). The assigned Oversight Managers are responsible for 
updating the critical issues and risks (schedule, cost, funding, legal, 
contractual, and technical) on a monthly basis, with the consolidated 
report forwarded to FHWA upper management and the OIG.
    The sharing of best practices and lessons learned among the major 
projects are accomplished via annual Oversight Managers meetings, semi-
annual newsletters, and the Central Artery/Tunnel Project's Innovations 
and Advancements workshop.
    Project Management Plans are strongly encouraged from a best 
practices point of view, in order to clearly define the roles, 
responsibilities, processes, and activities that will result in the 
major project being completed on-time, within budget, with the highest 
degree of quality, in a safe manner, and in a manner in which the 
public trust, support, and confidence is maintained. A provision in the 
SAFETEA reauthorization proposal would make Project Management Plans a 
requirement for all highway projects with an estimated total cost of 
$1.0 billion or more.
    All of these initiatives have been implemented within the last 3 
years and have expanded the Federal stewardship and oversight of major 
project planning and construction.
                       ``at-risk'' mega projects
    Question. The budget discusses plans to designate mega projects 
with significant deviations from cost and schedule baselines as ``at-
risk.'' Does this designation carry with it any additional requirements 
or Federal oversight? Please identify mega projects currently underway 
that, under this new plan, would receive an ``at-risk'' designation?
    Answer. Major (mega) projects designated ``at-risk'' would trigger 
certain special conditions or restrictions, until the recipient of 
Federal funds addresses identified issues in an approved recovery plan. 
These special conditions may include withholding of authority to 
proceed to the next phase of the project; requiring additional, more-
detailed cost, schedule, or financial reports; requiring the recipient 
to obtain technical or management assistance; establishing additional 
prior approvals; requiring more direct on-site inspection of the 
project by Department personnel; and/or follow-up reporting on a 
periodic basis until the Department removes the designation.
    The Boston Central Artery/Tunnel project was designated ``at-risk'' 
in 2000 after several investigations and project reviews indicated 
significant rising costs. The I-95/I-495 Springfield Interchange 
project, though not officially designated ``at-risk,'' was required to 
begin submitting Financial Plans due to rising costs, even though the 
total cost of the project is still well under $1.0 billion. None of the 
other 12 identified active major projects have thus far experienced 
significant cost or schedule deviations.
                 sr 210/foothill freeway additional fte
    Question. The FHWA budget lists the FTE requirements for mega 
project oversight; however, the SR 210/Foothill Freeway, CA project has 
no staff listed for fiscal year 2004. Given that all mega projects will 
receive improved oversight, why then are no FTE requested for this 
particular project?
    Answer. The SR 210/Foothill Freeway project is on schedule and 
within budget; therefore, no Financial Plans and annual updates, and 
hence additional FTEs to provide project oversight, are required for 
this project. With a substantial portion of the project already 
completed, the California Division office is able to conduct adequate 
oversight of this major project with existing staff.
                       enviromental streamlining
    Question. The budget requests $20.8 million to support 
transportation research dealing with environmental streamlining which 
focuses on long-term and preemptive measures designed to streamline the 
environmental impact review process and procedures. What environmental 
streamlining measures have been implemented thus far and what measures 
are being researched that would lead to greater environmental 
streamlining efforts in the future? Please provide a detailed breakdown 
of how the requested $20.8 million will be spent.
    Answer. FHWA has been pursuing environmental streamlining measures 
on multiple fronts, some national in scope, some regional or State-
specific in scope. These measures implement Congressional direction 
from Section 1309 of TEA-21, and have been implemented in the context 
of Executive Order 13274 and FHWA's Vital Few performance planning 
effort. The following describes some of FHWA's accomplishments to-date.
Solidifying Interagency Partnerships
    Field level environmental summits.--The FHWA Eastern, Southern, and 
Western Resource Centers held regional conferences, bringing together 
representatives from Federal, State, and local transportation, 
planning, and resource agencies, local governments, Metropolitan 
Planning Organizations (MPOs), transportation and environmental 
organizations, tribes, and consultants to discuss relevant issues and 
identify opportunities for improvement. Results of the summits were 
distributed via the Successes in Streamlining Monthly Newsletter 
(September 2002). The sharing of solutions and integration of efforts 
found within each regional conference advances streamlining through an 
emphasis on process improvements.
    Interagency training on environmental streamlining.--The Federal 
interagency workgroup has collaborated in organizing a series of 
environmental streamlining workshops aimed at getting field staff of 
each Federal agency aligned with the national agenda. FHWA sponsored a 
multi-agency workshop in 1999 and agency-specific workshops with the 
U.S. Army Corps of Engineers (2001), Environmental Protection Agency 
(2002) and Fish and Wildlife Services/National Oceanic and Atmospheric 
Administration (2003). These workshops have been a good forum for 
sharing the national vision, identifying issues that cause interagency 
conflict, and sharing innovative practices from around the country. 
Furthermore, they have promoted the concepts of coordination and 
process efficiencies in the environmental review of transportation 
projects.
Institutionalizing Dispute Resolution
    Partnership with Institute for Environmental Conflict Resolution 
(IECR).--The 1998 Environmental Policy and Conflict Resolution Act 
created IECR, which is part of the Morris K. Udall Foundation. IECR 
helps Federal agencies and other involved parties manage and resolve 
Federal environmental, natural resource, and public lands disputes by 
providing services such as case consultation, conflict assessment, 
process design, facilitation, and mediation. FHWA partnered with IECR 
to meet the mandate set forth in Section 1309(c) of TEA-21 to create 
dispute resolution procedures as part of a national environmental 
streamlining initiative. FHWA and IECR have been working effectively 
together since 1999 to develop and implement the four components of the 
dispute resolution system, described below. The dispute resolution 
system is intended to assist the agencies to quickly and effectively 
focus on the pertinent project issues, save time, and avoid the costs 
of potential litigation.
    Roster of qualified neutral facilitators.--As part of the FHWA/IECR 
collaborative partnership, a transportation roster was created that is 
comprised of dispute resolution professionals with experience in NEPA 
and transportation projects. The roster is managed by the U.S. 
Institute for Environmental Conflict Resolution, with financial support 
by FHWA to help cover administrative costs. These professionals can 
provide services such as conflict assessment, facilitation of 
interagency partnering agreements, design of conflict management 
processes, and mediation of disputes. Project sponsors contact IECR to 
access the transportation roster, and then negotiate contracts and pay 
for the costs of the transportation roster members' services directly. 
Recently, FHWA and transportation sponsors have used the transportation 
roster to provide facilitators for three of the priority projects 
designated under Executive Order 13274.
    Guidance on interagency conflict management.--This FHWA guidance 
offers a range of optional tools agencies can use to manage conflicts 
and resolve disputes during the transportation project development and 
environmental review processes. It also constitutes the key reference 
document used in the interagency workshops described below.
    Interagency conflict management workshops.--The FHWA dispute 
resolution system includes a series of customized facilitated 
interagency workshops in each of the 10 standard Federal regions. The 
workshops were developed during 2002 and will be held from May to 
December 2003. Skills gained at the workshops will help practitioners 
from the various agencies to better identify environmental review 
issues, negotiate time frames and work through disagreements using 
interest based negotiating.
Supporting State Environmental Streamlining Efforts
    American Association of State Highway and Transportation Officials 
(AASHTO) ``Center for Environmental Excellence.''--AASHTO launched the 
Center in 2002 with technical and financial assistance provided by 
FHWA. The Center's mission is to assist AASHTO's member organizations 
with implementing environmental stewardship into their various 
practices and procedures, and promoting innovative streamlining of the 
project delivery process. AASHTO expects that the results of this 
assistance will be beneficial to State transportation agencies and also 
supportive of FHWA's work in protecting and enhancing the environment.
    Individual State environmental streamlining initiatives.--FHWA has 
partnered with well over half of the State departments of 
transportation in advancing their own environmental streamlining 
efforts. Notable examples include Florida's Efficient Transportation 
Decisionmaking effort, and Texas' I-69 interagency partnering effort.
    Environmental Streamlining Research.--The funds requested in fiscal 
year 2004 to support transportation research dealing with environmental 
streamlining (ES) will be used for the following activities:
            Assistance to State and Field Office Initiatives
  --Support for State DOT ES efforts
  --AASHTO Center for Environmental Excellence
  --FHWA field office initiatives to enhance interagency coordination
            National ES Initiatives
  --Dispute resolution facilitation and training
  --Performance evaluation systems and studies
  --Integrated approaches promotion & training
  --Information sharing on ES
  --Policy Research.
                            fte distribution
    Question. The FHWA budget requests 12 new FTE. Specifically where 
will these new FTE be utilized?
    Answer. The 12 new FTE that are requested in fiscal year 2004 will 
be utilized as Mega-Project Oversight Managers to enhance major 
projects oversight and fulfill FHWA's commitment of having a dedicated 
oversight project manager on each mega-project. They will: represent 
FHWA before other Federal agencies, State Transportation Agencies 
(STA), local agencies, consultants, and contractors on all project 
delivery and oversight issues; be responsible for overseeing the review 
and approval of plans, specifications and cost estimates; and ensure 
that FHWA laws and requirements, such as Buy America, Davis-Bacon 
minimum wage rates, Disadvantaged Business Enterprise and affirmative 
action requirements, records of materials and supplies, etc., are 
incorporated in Federal-aid construction contracts. The table below 
provides a breakdown of the FTE Requirement for Active (and Future) 
Major Projects.

                     FISCAL YEAR 2004 FTE REQUIREMENT FOR ACTIVE (AND FUTURE) MAJOR PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                                      Current       Fiscal Year
                    Projects                                  Status              Staffing Level       2004
----------------------------------------------------------------------------------------------------------------
I-80/San Francisco-Oakland Bay Bridge (East      Active.........................               1               1
 Span), CA.
SR 210/Foothill Freeway........................  Active.........................  ..............  ..............
I-25/I-225 Southeast Corridor, CO..............  Active.........................               1               1
New Haven Harbor Crossing, CT..................  Active.........................  ..............               1
Miami Intermodal Center, FL....................  Active.........................  ..............               1
I-4/I-275 Tampa Interstate, FL.................  Active.........................  ..............               1
New Mississippi River Bridge, IL-MO............  Active.........................  ..............               1
Central Artery/Ted Williams Tunnel, MA.........  Active.........................               5               3
Central Texas Turnpike, TX.....................  Active.........................               1               1
I-10/Katy Freeway, TX..........................  Active.........................  ..............               1
I-95/Woodrow Wilson Bridge, MD.................  Active.........................               2               2
I-95/I-495 Springfield Interchange, VA.........  Active.........................               1               1
I-64/Hampton Roads Third Crossing, VA..........  Active.........................  ..............               2
I-94/East-West Corridor, WI....................  Active.........................  ..............               1
New Ohio River Bridges, KY-IN..................  Future.........................  ..............               1
I-94/Edsel Ford Freeway, MI....................  Future.........................  ..............               1
Mon/Fayette Expressway, PA.....................  Future.........................  ..............               1
I-635/LBJ Freeway (West Section), TX...........  Future.........................  ..............               1
I-405 Corridor/SR 509 and I-5/SR520/Alaskan Way  Future.........................  ..............               2
 Viaduct, WA.
                                                ----------------------------------------------------------------
      Totals...................................  ...............................              11              23
----------------------------------------------------------------------------------------------------------------

 upgrading and protecting the existing information resource management 
                             infrastructure
    Question. As part of the LAE, Federal Highways anticipated 
upgrading and protecting the existing Information Resource Management 
infrastructure. What does this anticipated upgrade involve and how much 
money will be required to specifically carry out this effort?
    Answer. The anticipated upgrade includes: (1) establishment of a 
systematic replacement/refresh cycle for basic Information Resource 
Management (IRM) hardware; (2) additional contract services for IRM 
Security; and (3) upgrades and maintenance of IRM Security equipment. 
The total amount of money required to carry out this consolidated 
effort is $2.9 million.
    The first effort is establishment of a systematic replacement/
refresh cycle for basic IRM equipment, in particular, desktop 
computers, laptop computers, printers and networks. The Federal Highway 
Administration (FHWA) is not seeking to upgrade these categories of IRM 
hardware across the board. Rather, FHWA seeks to establish a standard 
replacement interval for each category of IRM hardware and then to 
replace hardware items only when their interval has elapsed. FHWA 
requests $1.2 million to carry out this effort.
    The second effort is an increase in contract services for IRM 
Security. The additional contract services would be used to enable FHWA 
to complete certification and accreditation activities by the 
Department of Transportation's established deadline of December 2005 as 
well as to develop and implement the initial components of a continuous 
risk management process. FHWA requests $1.2 million to carry out this 
effort.
    The third effort is to upgrade and maintain IRM Security equipment. 
In particular, the effort would involve purchasing the automated tools, 
software upgrades and associated maintenance necessary to actively look 
for, anticipate, and counteract threats and vulnerabilities before they 
are employed or exploited. These tools include, without limitation, 
intrusion detection systems, vulnerability scanners, incident response 
tools, incident tracking systems, anti-virus, file encryption, and 
secure remote access. FHWA requests $500,000 to carry out this effort.
                                 ______
                                 
              Question Submitted by Senator Arlen Specter
             commercial passenger aircraft fuel tank safety
    Question. Mr. Secretary, I am advised that the Federal Aviation 
Administration has worked recently with Foamex International, Inc. of 
Linwood, Pennsylvania on identifying current fiscal year funding 
opportunities for important research concerning the safety of 
commercial passenger aircraft fuel tanks.
    I was pleased to learn that Associate Administrator Charles Keegan 
and his staff are drafting a Cooperative Research Development Agreement 
to conduct tests that will help determine the effectiveness of using 
the company's Safety Foam for safety and security applications. Safety 
Foam is an advanced reticulated polyurethane foam material, which can 
be installed inside aircraft fuel tanks and can act as a 3-dimensional 
fire screen that prevents fire propagation due to internal ignition of 
fuel vapors.
    Given the importance of maximizing the safety of such fuel tanks, I 
would appreciate your providing the Subcommittee with an update as to 
the timetable for entering into the Cooperative Agreement with Foamex 
International, the amount of fiscal year 2003 funds the agency is 
prepared to devote to this critical research, and any other relevant 
information on this specific subject you would like to share with us.
    Answer. Working with Foamex International, the FAA has developed a 
Cooperative Research Development Agreement. The agreement was sent to 
Foamex for their signature on June 13, 2003.
    The FAA has set aside $100,000 in fiscal year 2003 aircraft safety 
funds to support tests and evaluations to determine the potential 
effectiveness of the foam for commercial aviation applications.
    At a June 10, 2003, meeting of fuel system and foam experts, 
including representatives from Foamex and others in the private sector, 
the FAA developed the preliminary proposal for a series of tests to 
explore the foam's feasibility in mitigating the effects of a simulated 
crash of an airplane and the spillage of a large amount of fuel. Foamex 
and FAA technical personnel have met to discuss and design a test 
plant. The parts necessary for the test have been ordered. Since they 
are rather unique and need to be specially fitted, the first ``water 
only'' test won't take place until mid-October.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
                          short line railroads
    Question. As I mentioned in my opening remarks, a particular 
concern that should be near the heart of many of us in this room is the 
fate of short line local freight railroads. These short lines account 
for roughly half the rail miles in Kansas. These lines gather tens of 
thousands of carloads of grain and start them on their way across the 
country and for export abroad.
    However, government disincentives forced the prior owners of these 
light density lines to neglect investment in the infrastructure, and 
now the weight of loaded railroad cars are growing ever heavier. This 
has forced many of these light density lines to abandon operations. 
From 1980 to 1990 Kansas lost 862 miles of railroad to abandonment. 
From 1990 to 2000, Kansas lost 1,157 miles. In the last 2 years we have 
lost 357 miles.
    In Kansas, when railroads go out of business it is very bad for 
highways. For example, Harper County, Kansas recently lost rail service 
and the increase in heavy trucks as a result does so much damage to the 
roads that the government can no longer afford to pave them--instead 
the once paved roads are being turned into unpaved gravel roads.
    The Kansas DOT estimates that short line railroads, by removing 
heavy trucks from the highway, save roughly 17 cents in highway damage 
for every mile that a truck would otherwise travel. Seventeen cents a 
mile in Kansas amounts to $50,000,000 per year that K-DOT estimates are 
saved by the continued existence of these lines.
    It seems to me Mr. Secretary that these numbers in terms of cost 
savings for our highway system are compelling. The more traffic we can 
get onto local railroads the less it costs to maintain our highways, 
not to mention the immeasurable cost in jobs and opportunities to 
communities that lose rail service.
    Last Congress I supported legislation S. 1220 along with my 
colleagues Sen. Specter and Sen. Hollings that would have made $350 
million per year available to help preserve freight service on these 
lines. What similar plans, if any, does the administration have to 
address the desperate need in every rail served State to preserve short 
line railroads?
    Answer. The Administration has not proposed a new grant program as 
contained in S. 1220. There exists now a loan and loan guarantee 
program, the Railroad Rehabilitation and Improvement Financing (RRIF) 
Program, that offers financial assistance to meet these needs.
                      s. 788 century of flight act
    Question. While the aviation industry is currently suffering and 
revenue for the Airport and Airway Trust Fund has decreased recently, 
the FAA forecasts that growth in the airline industry is expected to 
return to near normal levels. If these forecasts are true, demand for 
air travel will require expansion of air traffic services. In an 
industry that is currently suffering, we must act now to provide the 
needed assistance and vision where we are currently lacking.
    This is precisely why I introduced along with Senator Hollings, S. 
788, the Second Century of Flight Act. The purpose of this bill is to 
ensure that the United States continues to lead the world in 
aeronautics and aviation safety, technology, and efficiency. 
Additionally, this bill aims to create a better trained U.S. aerospace 
workforce, through support for technical colleges and other educational 
institutions. And of particular importance, this bill would facilitate 
the coordination of U.S. research efforts, and increase focus on 
directing government research towards usable products that enhance 
safety, are environmentally sound, and increase efficiency.
    I am pleased that my Colleagues on the Commerce Committee agreed to 
three of the four titles of S. 788, in the FAA Reauthorization bill we 
passed out of the Committee. These titles include provisions that 
create a national office to coordinate aviation and aerospace research 
activities with the U.S. Government and encourages public-private 
cooperation; create a national office to focus on a next generation air 
traffic management system; and establishes educational incentives to 
train the next generation of aeronautics engineers and mechanics.
    Mr. Secretary, I am sure you are aware of the importance of these 
issues, not only in Kansas, but across the United States. I would like 
you to comment on your commitment to these issues and specifically, 
your support of the initiatives in S. 788.
    Answer. The Department of Transportation (DOT) is very aware of the 
importance of the issues you raise and have actively initiated efforts 
to better support the U.S. position in aerospace research and 
development. DOT has formed a Joint Planning Office (JPO) comprised of 
the Federal Aviation Administration (FAA), Department of Defense, 
Transportation Security Administration, Department of Commerce, and 
National Aeronautics and Space Administration to focus on development 
of our next generation air traffic management system. The FAA leads the 
team. We are also establishing a high-level policy committee to guide 
this effort that will be chaired by the Secretary of Transportation. 
The Secretary will establish the Policy Committee in the summer of 
2003. The next steps are to establish advisory committees for this 
activity, to coordinate a framework for the initiative through the five 
participating agencies and departments, and begin drafting the national 
plan.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                          competitive sourcing
    Question. Last year, the Federal Aviation Administration announced 
that it is considering plans to privatize up to 2,700 air traffic 
control jobs at 58 of FAA's 61 Automated Flight Service Stations (AFSS) 
around the country. These jobs are critical to the safety of the 
traveling public, and I believe that the Department of Transportation 
should be more careful about handing these important functions over to 
the private sector. This country learned a valuable lesson about 
entrusting public safety responsibilities to private companies when we 
discovered security failures at our airports, which required Congress 
to place those responsibilities in the hands of the Transportation 
Security Administration. Apparently, the Department has not learned 
anything from this experience.
    I am concerned that the FAA is acting under pressure from the White 
House to implement the President's competitive sourcing initiative. OMB 
scores agencies on how well they comply with the President's Management 
Agenda. Agencies are encouraged to submit management plans to the OMB, 
which incorporate the competitive sourcing quotas outlined in the 
President's budget.
    It is my understanding that these competitive sourcing plans, once 
they are submitted to the OMB for approval, can be released to the 
public at the discretion of the agency heads. If the Congress is to 
appropriate substantial funding for private sector employment 
opportunities, I expect that you will first provide Congress, and in 
particular this Committee, with a copy of any management plans or 
competitive sourcing proposal that the Department of Transportation 
submits to the OMB. When do you expect to submit a competitive sourcing 
plan to OMB, and how soon can you make that plan available to this 
Committee?
    Answer. FAA prepared a competitive sourcing plan for Automated 
Flight Service Stations that was submitted to the Department of 
Transportation on June 19, 2002. As a result of recent changes to OMB 
Circular A-76 and the President's Management Agenda, FAA is in the 
process of updating the plan again. The agency will provide the 
Committee a copy of the revised FAA competitive sourcing plan when it 
is complete.
    Question. How can you explain to the American people the 
willingness of the FAA to take flight safety out of the hands of 
dedicated public servants and put hand it over to private companies 
that are only dedicated to maximizing profits?
    Answer. Automated Flight Service Stations (AFSS) do not engage in 
the separation of aircraft. Their duties primarily support the general 
aviation community by providing weather briefings, processing flight 
plans, assisting lost pilots, and initiating search and rescue 
operations. These functions are performed at separate facilities 
throughout the United States and Puerto Rico. (The three AFSS in Alaska 
have been excluded from the study.) Each year the FAA spends over $500 
million to support this function. Since the competitive sourcing study 
of the AFSS is a public/private competition, not a privatization, the 
existing government employees will have a chance to compete for and win 
their work. So it will not automatically go to the private sector. 
Whoever wins the competition, public or private, will be accountable 
for their performance through performance metrics and incentives. FAA 
believes that it is possible to pursue ways of decreasing costs while 
improving service through the use of OMB Circular A-76.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
              fiscal year 2004 funding request for amtrak
    Question. Why did the Administration only include $900 million for 
Amtrak in the fiscal year 2004 budget when this level of funding will 
send the company into insolvency?
    Answer. The fiscal year 2004 request was a request with a message. 
That message is that the Administration is unwilling to support ever-
increasing levels of appropriations for the current, broken business 
model of providing intercity passenger rail service in this country. 
Until the changes to intercity passenger rail service are developed and 
agreed upon as part of the authorization process, the Administration is 
not willing to discuss funding intercity passenger rail service at a 
level above $900 million.
        the administration's vision for intercity passenger rail
    Question. The Bush Administration's vision for our Nation's 
intercity passenger rail system would separate the train operations 
from the infrastructure management on the northeast corridor. The 
United Kingdom failed when it tried this model. Can you give me 
specifics as to how your model for the northeast corridor differs from 
the failed British model?
    Answer. The Administration has carefully observed the rail 
privatization initiative in the United Kingdom and believes that the 
strategy for intercity passenger rail reform in this country will 
reflect the lessons that can be learned from the United Kingdom's 
experience. The primary lesson is that the Administration's plan will 
avoid the conflict between infrastructure owner and train operator 
inherent in the U.K. model. The public will continue to own the 
infrastructure with a strong say in how it is maintained and operated. 
The same public entity, a compact of the Northeast Corridor States, 
will also determine who operates over this infrastructure.
    Question. In your vision for Amtrak's reauthorization, you call for 
private operators to run Amtrak's long distance routes. Can you name 
for me a company that is willing to operate one of these routes without 
subsidy? Do you think the freights will agree to allow multiple private 
operators to run passenger trains on their tracks?
    Answer. The Department's proposal does not envision private sector 
companies volunteering to operate intercity trains at a loss. The 
States would put together the financial package for each train they 
believe is important enough to warrant the State's support. To the 
extent such a train would not cover its operating expenses from the 
fare box, then it would be up to the States to identify the source or 
sources of operating assistance. With further regard to private 
operators, the Department does not envision multiple operators on the 
same rail route except in very close proximity to stations and 
terminals where routes come together.
    Question. Do you think the States have the money to pay for the 
operating costs to run the long distance trains as the Administration 
is suggesting in its plan? Considering that the Federal Government 
created the long distance routes and that these routes run through 
multiple States, why should these costs be shifted to the States? The 
Federal Government created the Federal highway system which runs 
through multiple States, yet you are not asking for the States to cover 
the operating costs for those highways.
    Answer. The Administration is well aware of the financial 
challenges facing the States. For that reason, the Administration's 
proposal envisions a reasonable transition time to permit the States to 
identify which services are important to them and sources of funds to 
provide needed financial assistance. The expectation that the Federal 
Government does not provide operating assistance is consistent with the 
Federal role in highways and transit; States and localities assume 
responsibility for operating costs for these forms of transportation.
                      small community air service
    Question. Is the Department working with small communities to help 
attract and retain passenger air service? In what ways? This becomes 
more urgent as carriers terminate service to smaller communities due to 
the financial crisis in the airline/aviation industry.
    Answer. The Department recognizes that small communities have been 
affected by the financial crisis in the airline industry. The 
Department has two programs specifically designed to help small 
communities with their air services. First, under the Essential Air 
Service (EAS) program, over 700 communities are guaranteed to receive 
at least a minimum level of air service. Of those, the Department 
currently subsidizes carriers to serve 135 communities nationwide, 33 
of which are in Alaska. Since September 11, 2001, the Department has 
received over 50 notices from carriers to terminate the last service at 
the community, most of them triggering a first-time EAS subsidy. The 
Department has ensured that these communities continue to receive air 
service as we seek replacement carriers.
    Second, the Department administers the Small Community Air Service 
Development Pilot Program. This program was established under the AIR-
21 legislation and is a new program designed to help small communities 
address problems related to inadequate air service and high airfares. 
Under the legislation, the Department may make grant awards to a 
maximum of 40 communities each year, although no more than 4 may be 
from any one State. This program is unique in that it provides 
communities the flexibility to design their own solutions to their air 
service problems and to seek Federal financial support to help them 
implement their plans.
    For fiscal year 2002, the first year that funds were available, 
Congress appropriated $20 million for this program. The program was 
very popular in fiscal year 2002 with the Department receiving 180 
applications. Grant awards were made to 40 communities using all of the 
funds available. Many of these grants have already led to new or 
improved services at the selected communities, including Fort Smith, 
Arkansas; Daytona Beach, Florida; Augusta, Georgia; Hailey, Idaho; Lake 
Charles, Louisiana; Meridian, Mississippi; Taos, New Mexico; Akron/
Canton, Ohio; Rapid City, South Dakota; Charleston, West Virginia; and 
Rhinelander, Wisconsin. In February 2003, Congress appropriated $20 
million for this program for fiscal year 2003. The Department solicited 
proposals from interested communities on April 29. Proposals were due 
June 30 and are being reviewed.
                       overseas repair facilities
    Question. The Administrator has been petitioned by the 
Transportation Trades Department of the AFL-CIO and its member unions 
for an immediate suspension of repairs performed on U.S. aircraft at 
overseas maintenance facilities. The petition cites potential threats 
to safety and security as well as lax government oversight. Do you have 
plans to either suspend these repairs or more fully study this issue in 
the near future? Would you support Federal legislation?
    Answer. The Federal Aviation Administration (FAA) agrees that our 
national security posture was dramatically altered from the tragic 
events of September 11, 2001. All transportation agencies collectively 
identified ways to improve their security plans and immediately set 
about incorporating changes necessary to strengthen those deficient 
areas. The Transportation Security Administration (TSA) is beginning to 
study security requirements for both foreign and domestic repair 
stations. The FAA will support and work with the Homeland Security 
Department's TSA in this area.
    There are no plans to revoke any foreign repair station 
certificates. The AFL-CIO requested that FAA revoke foreign repair 
station certificates. This would greatly reduce the availability of 
certified repair stations and severely affect the aviation industry. 
Under the proposed AFL-CIO scenario the only option for air carriers, 
both foreign and domestic, operating U.S. registered aircraft would be 
to have maintenance performed in the United States by domestic repair 
stations. This would set up a chain of events that would create 
scheduling difficulties and reduce the number of revenue-producing 
flights.
    The FAA would not support additional Federal legislation in these 
areas. The FAA currently has the authority to perform surveillance, 
oversight, and enforcements as appropriate on foreign repair stations.

                          SUBCOMMITTEE RECESS

    Senator Shelby. We wish you the best of health and we will 
recess the subcommittee to the call of the Chair.
    Secretary Mineta. Thank you very much, Mr. Chairman.
    Senator Shelby. Thank you.
    [Whereupon, at 11:37 a.m., Thursday, May 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
